<html>
<title> - SLAVERY THROUGHOUT THE WORLD</title>
<body><pre>[Senate Hearing 106-881]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-881

                      SLAVERY THROUGHOUT THE WORLD

=======================================================================

                                HEARING


                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                       ONE HUNDRED SIXTH CONGRESS


                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2000

                               __________


       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
69-751 CC                   WASHINGTON : 2001




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Dr. Kevin Bales, Trustee, Anti-Slavery International, United 
  Kingdom........................................................    20
    Disposable People: An Introduction to the New Slavery........    24
Francis Bok, Associate, American Anti-Slavery Group..............    18
Caruso, Stacy, Student, Member of the S.T.O.P. Campaign..........     6
Cadet, Jean Robert...............................................    43
Cimino, Nicole, Student, Member of the S.T.O.P. Campaign.........     8
Cho, Dong Hyan, Student, Member of the S.T.O.P. Campaign.........     5
Hayes, Charles, III, Student, Member of the S.T.O.P. Campaign....     6
Jacobs, Dr. Charles, President, American Anti-Slavery Group......    14
    Prepared statement...........................................    16
Teyeb, Moctar....................................................    37
    Prepared statement...........................................    40
Vogel, Barbara, Founder, S.T.O.P. Campaign; Educational Director, 
  American Anti-Slavery Group....................................    10
Young, Kristin, Student, Member of the S.T.O.P. Campaign.........     7

                                 (iii)

  

 
                      SLAVERY THROUGHOUT THE WORLD

                              ----------                              


                      Thursday, September 28, 2000

                                        U.S. Senate
                             Committee on Foreign Relations
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:37 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
presiding.
    Present: Senator Helms, Senator Brownback
    The Chairman. The meeting will come to order. This is the 
morning that Senator Brownback and I have been awaiting for a 
long time. I fell in love with this group of young people--when 
was it? How long has it been?
    Ms. Vogel. June.
    The Chairman. June. And I love you for what you are and 
what you stand for and what you are trying to do. And it is a 
special personal pleasure to welcome all of you to study the 
issue of slavery throughout the world. And it is a pleasure 
because Barbara Vogel, seated right there, and her students are 
very special in a very special way. And they have come all the 
way from Aurora, Colorado, as they did this past spring, to 
campaign against slavery in the Sudan.
    Now, as I was mentioning a minute ago, when I first met 
this group of young people, I was so impressed by their 
enthusiasm that I invited them to come back to discuss the 
practice of slavery in the Sudan before the committee in a 
formal sort of way. What you say and what you do is being taped 
by a very fine network: CSPAN. I am delighted to see all you 
young people this morning and I hope you will not miss too much 
school in order to come and be with us.
    We also welcome our additional witnesses, Mr. Francis Bok, 
and Dr. Charles Jacobs from The American Anti-Slavery Group, 
and Dr. Kevin Bales from the University of Surrey, Mr. Jean-
Robert Cadet from the University of Cincinnati, and Mr. Moctar 
Teyeb, the United States Coordinator for El-Hor.
    Now, let me explain that the Foreign Relations Committee 
has conducted numerous past hearings focusing on specific 
examples of human suffering throughout the world. This is a 
meaningful thing for many of us.
    Senator Brownback has been a leader. And perhaps some of 
you know Franklin Graham, son of Billy Graham, who is 
conducting his ministry in part in that part of the world.
    We have found an abundance of witnesses to describe such 
problems as war and famine and torture and religious 
persecution, among other deplorable suffering. But the issue 
that raises such a broad emotional response is slavery.
    The pitiful plight of so many in our world today, that even 
one person is enslaved is such a shocking consideration that it 
defies comprehension. Slavery is too real in so many parts of 
the world; and most people do not realize that. And that is the 
reason that Senator Brownback and I, and others, have felt 
obliged to raise this issue formally and officially in the 
United States Senate.
    We want to work and to try to make sure that this cruel 
conduct is ended. Slavery is such an emotionally charged issue, 
and I believe it is imperative that we look carefully at the 
circumstances giving rise to it.
    So once again, I look at you, and you are a handsome group 
bless your hearts, and I appreciate your coming.
    [The prepared statement of Chairman Helms follows:

               Prepared Statement of Senator Jesse Helms

    It's a special, personal pleasure for me to welcome our witnesses 
this morning, as the Foreign Relations Committee studies the issue of 
slavery throughout the world.
    It's a pleasure because Barbara Vogel and her students are very 
special to me. They have come all the way from Aurora, Colorado, as 
they did this past Spring to campaign against slavery in the Sudan.
    When I first met with this group of young people, I was so 
impressed by their enthusiasm that I invited them back to discuss the 
awful practice of slavery in Sudan before the Committee. I am delighted 
to see them again this morning, and I hope they will not miss too much 
school work in order to come here.
    We also welcome our additional witnesses: Mr. Francis Bok and Dr. 
Charles Jacobs from the American Anti-Slavery Group; Dr. Kevin Bales, 
from the University of Surrey; Mr. Jean-Robert Cadet, from the 
University of Cincinnati; and Mr. Moctar Teyeb, the United States 
Coordinator for El-Hor.
    The Foreign Relations Committee has conducted numerous past 
hearings focusing on specific examples of human suffering throughout 
the world. We have found an abundance of witnesses to describe such 
problems as war, famine, torture, and religious persecution--among 
other deplorable suffering.
    But the issue raising such a broad emotional response is slavery. 
The pitiful plight of so many in our world today, that even one person 
is enslaved is such a shocking consideration that it defies all logic. 
But slavery is all too real in parts of the world, and I feel obliged 
to raise this issue, and to work to try and make sure this vile, cruel 
conduct is ended.
    Slavery is such an emotionally charged issue, and I believe it is 
imperative that we must carefully look at all the revolting 
circumstances giving rise to this vicious inhumanity--particularly in 
the Sudan. Whether it is religious persecution, man-made famine, or 
slavery, human suffering is unacceptable in all its forms, whenever and 
wherever it happens.
    Once again, it is with pleasure that I welcome our witnesses, and I 
look forward to hearing your testimony.

    The Chairman. And now I am going to call on Senator 
Brownback for any comments he may have.
    Senator Brownback. Thank you very much, Mr. Chairman. This 
is an historic hearing; and I sit here looking at these young 
brilliant faces, and I think of the verse of a child shall lead 
them. This group from Aurora, Colorado, what they are doing to 
speak to the world about what we would consider unspeakable in 
the year 2000, that slavery exists and it continues yet today.
    And to my knowledge, this is the first hearing in recent 
times that this committee or any committee in the Congress has 
heard from past slaves, people who have been enslaved. And I 
met with two of the three gentlemen that will be testifying 
today. And I think the stories that they will reveal will be 
absolutely, they will be shocking to all of us.
    I am honored to join Senator Helms in raising this critical 
issue that still troubles us in the world. It is an issue with 
historic significance to me growing up in Kansas, a state that 
was born in the battle in our country over whether it would be 
a free or a slave state. My mother used to own the property 
where John Brown would stay when he was in Kansas during those 
days of what is referred to as Bleeding Kansas. Because it was 
under self-determination that we would come in a slave or a 
free state. And many people lost their lives in that battle and 
that fight.
    But they wanted freedom and they stood for freedom and they 
fought for it. And people moved to Kansas at that time, not 
particularly looking for economic opportunity. But they moved 
there specifically to see that the place would be free. They 
were called abolitionists.
    I see some of them at the table today, the ancestors have 
gone before them. And here is the next generation to come 
forward as abolitionists.
    We also have testifying Dr. Kevin Bales. I have his book 
and I have read portions of it already. And I look forward to 
reading the rest of it. He will attest that slavery is a 
worldwide practice with at least 27 million in bondage.
    It comes in numerous forms, but it is always degrading. 
Young men from northeast Brazil are forced into slavery in 
Amazonia, defrauded into working in remote camps without pay. 
Sydney's women and children are abducted as booty, suffering 
religious persecution, marriage, so to speak, to their rapist, 
physical branding as well as heart breaking loss of home, 
family and identity.
    Young girls are forced into temple prostitution in remote 
villages while other children throughout Southeast Asia are 
forced into bonded labor for decades as collateral for loans 
amounting to as little as $50.
    You will hear about people known as restavecs who suffer 
the indignities of slavery peculiar to Haiti. We have a witness 
to testify who has written a book on that and has experienced 
that.
    We will hear about Mauritania where approximately half of 
the population is enslaved. The Arabs enslaving the Africans in 
an institutionalized unbroken chain reaching back at least 700 
years.
    Recently, the subcommittee I chaired for the Senate Foreign 
Relations Committee, heard testimony in two previous hearings 
on the international trafficking of persons which is another 
form of slavery, sex trafficking.
    According to our government estimates, at least 50,000 
women and children are trafficked into America each year. And 
the CIA reports globally the number is approximately 700,000. 
They also estimate that in the next 10 to 20 years this trade 
may exceed the drug trade in value.
    Today Senator Wellstone and I will attend a conference with 
the House on our Senate legislation which combats trafficking, 
one of the largest manifestations of slavery today.
    Slavery comes in many forms, but its methods are chillingly 
repetitious. Slavers employ force or fraud to trap their 
victims into a life of exploitation, somehow escaping the 
indigenous legal system.
    Slavers trap the unsuspecting with false contracts and 
empty promises involving better work in a factory, shop or 
restaurant. Slavers strip their prey of all legal documents 
after transport to a strange country. These same people are 
then fraudulently forced into years of bondage to pay off the 
price of their abduction and keep.
    I personally met with a number of young girls in Nepal and 
Katmandu earlier this year who had been trafficked, mostly by 
deception and trickery, into India, into the brothels, the sex 
trade there, at ages 11, 12 and 13 years of age. They were 
coming back to Nepal, having been released in some cases 
because of illness, in some cases being found and brought back 
by family members. Two-thirds of them, Mr. Chairman, had AIDS 
and/or tuberculosis coming back. Girls at the very point of 
entering adulthood with a death sentence. It is one of the most 
tragic things I have seen anywhere.
    You will hear testimony from three people who were formerly 
enslaved in Sudan, Mauritania and Haiti, all countries where 
slavery is common if not even prevalent. In Sudan, slavery is 
an act of war. While in Mauritania and Haiti, it takes a 
different form, including people born into generational slavery 
which promises the same degrading fate to their children and 
offspring with little hope of escape.
    While working against Sudanese slavery, I was reminded of a 
time in our nation's history when we also tolerated and even 
condoned slavery. This turbulent and grievous history, however, 
also includes a great courage and perseverence among the 
African Americans who suffered slavery and fought for freedom.
    As I contemplated this history, I wondered why there were 
no museums, such as the National Holocaust Memorial Museum in 
Washington, D.C., dedicated to telling this story. We have many 
fine museums which tell bits and pieces, but none are dedicated 
to telling the whole incredible story of the African American 
struggle as it relates to slavery on a national level. That is 
why I am exploring ways to honor and remember those who 
suffered in that plight and in that terrible situation in our 
country. I would enjoin others to join me in that effort.
    We will hear compelling testimony today from people who 
have dedicated their lives revealing the truth about modern day 
slavery. These are abolitionists in the great traditionalists 
of William Wilberforst. These are the new abolitionists, 
including Dr. Charles Jacobs of the American Anti-Slavery Group 
as well as Barbara Vogel and her children that are assembled in 
front of us today from Highline Community School. We will hear 
testimony from Dr. Kevin Bales, as I mentioned, who has written 
a definitive book on this.
    All this I go to say that this is an important topic and 
real people are being impacted in many places. And I look 
forward to this light being shined on such an important dark 
subject. Thank you, Mr. Chairman, for holding the hearing.
    The Chairman. Thank you, Senator. Barbara, I am going to 
ask you to be sort of a lieutenant of ours and you introduce 
each of these young people and tell us anything that you will 
about their special personality and so forth. So the floor is 
yours and you may proceed.
    Ms. Vogel. Senator Helms, thank you. May God add, and I 
know he already has, another star to your crown. First, this is 
Dong Cho. And you should never give a teacher that license to 
brag about her children. This could take far too long. I would 
say that each of these children are our blessing and our future 
and truly are the most remarkable--as all children are--human 
beings. I had all these children for two years in fourth and 
fifth grade. Dong is now in sixth grade.
    This is Stacy Caruso. And she is a lovely human being. She 
is here today. Stacy has been through many difficulties in her 
life. And that has caused her to understand the pain of others. 
And she will testify about that.
    This is Charles Hayes, III, who you will hear him testify 
his family was enslaved in the south. And Charles here is to 
represent his family, his people and his country. And you will 
hear that in his testimony.
    This is Kristin Young. Kristin has herself been a victim of 
hurt in her life, beyond what any of you would like to know. 
But Kristin has put that aside. If you look at her, you do not 
see it. You are looking at a pillar of strength and a heart 
much bigger than this room.
    Nicole Cimino is on the end. The little one. We have the 
little ones anchoring the ends. This will probably be our first 
woman President of the United States down here. So get ready.
    The Chairman. Thank you. I tell you we are going to start 
from this end. Nicole, we will call on you first. Does that 
scare you to death? No, it does not.
    Ms. Vogel. Senator Helms, would it be all right when the 
children decided to practice, they decided to go kind of this 
order. Would that be okay?
    The Chairman. Okay.
    Ms. Vogel. They have kind of a reason for doing that.
    The Chairman. I usually start at the left because in our 
grown up witnesses they get more and more conservative as they 
get to this. You may proceed, sir. And pull the microphone a 
little bit closer and speak up. That is right.

  STATEMENT OF DONG HYAN CHO, STUDENT, MEMBER OF THE S.T.O.P. 
                            CAMPAIGN

    Mr. Cho. The S.T.O.P. campaign has changed my life forever! 
The S.T.O.P. campaign gave birth to my larger and more noble 
heart. It taught me that everybody was not free in the world 
that we live in. It showed me love for all people. The S.T.O.P. 
campaign transformed me into an adolescent abolitionist. As my 
heart grew, so did my hope to eradicate slavery. The S.T.O.P. 
campaign is also a campaign of hope for the Sudanese people.
    The campaign has grown to include schools in all fifty 
states and many countries around the world. As it grew so did 
our message that there is still slavery in the world today.
    The government should get involved and not sit idly by. 
Even though Sudan is far away, the children are still people 
just like us and they deserve our help.
    Article four of the Declaration of Human Rights states that 
slavery and servitude in all its forms are outlawed in the 
world. Doing nothing only makes it worse for the Sudanese 
people and breaks international laws.
    We are just kids and we have helped free over 35,000 slaves 
in Sudan. Our government is probably the most powerful 
government in the world, and if they are so powerful, why can't 
they help free the Sudanese people?
    I have to do homework, chores, and go to school and I still 
have time to help. Is Congress too busy? Why can't the Congress 
take real action to get these people out of this horrific 
tragedy?
    We have asked our government for over three years to help. 
How much longer will we have to wait for an answer?
    The Chairman. Thank you, sir. Well done. Now, you want 
Stacy to go next? Stacy, you are on.

  STATEMENT OF STACY CARUSO, STUDENT, MEMBER OF THE S.T.O.P. 
                            CAMPAIGN

    Ms. Caruso. Over two million dead and the only ones that 
seem to care are children. Can you believe that these children 
are making such a big difference in this world?
    Well, I can, because I am one of them.
    The S.T.O.P. Campaign has helped free over 35,000 slaves in 
Sudan. I have never felt so bad about a tragedy in this world 
as I do about this one. I have put my heart and soul into 
stopping slavery. This is wrong and adults are not doing 
enough. Children are doing more than the government to end 
slavery.
    God made us different. But just because these children live 
half way around the world and are different from me does not 
mean they should be beaten, raped and mutilated. Every person 
in this world has the right to be free.
    I have put my heart into these people of Sudan and I will 
not give up hope. We must do something about this.
    The government's lack of action has caused the Sudanese 
people to give up hope. They think the world does not care. I 
have grown up with many problems, and I understand the pain 
that they are going through.
    This is more than a problem, this is a holocaust. Two 
million people have died. Do you not see another holocaust in 
this? There are more dying every day. So, please join us and 
free the slaves. Please help free what I consider to be my 
worldwide family in this hopeless moment.
    The Chairman. Bless your heart. Charles.

    STATEMENT OF CHARLES HAYES, III, STUDENT, MEMBER OF THE 
                       S.T.O.P. CAMPAIGN

    Mr. Hayes. I am here today to speak to you about the slaves 
in Sudan who have lost all hope. When I first heard about 
slavery in Sudan, I brought this issue to my parents, and they 
were shocked that people of color were still enslaved. My 
parents then helped me research my own family history. I 
learned that many of my ancestors had been held in slavery in 
North Carolina and were sold to third parties with only the 
clothes on their back. After learning that my ancestors were 
slaves, I found that the S.T.O.P. campaign gave me the courage 
to pursue the issue of slavery.
    I know what the families feel like when their loved ones 
are captured and enslaved. I felt distraught and heart broken 
that this was still going on in the world today. I vowed to 
make a difference to my family, community and country. In the 
S.T.O.P. campaign, we have achieved our goal of raising 
awareness, but we have not succeeded in stopping slavery. We 
need your help and guidance. Many of you who are here today 
have believed in us and we thank you for showing empathy for 
the slaves and us. Yet, this has not been enough. We still need 
our government to take a stand and fight for the most precious 
gift of freedom.
    What I would like is for our government to work together 
with other countries to come up with a plan to retrieve and 
return all Sudanese slaves to their villages. I would also like 
to help the other 27 million people who are in some sort of 
slavery, and I would like for you to recognize and condemn all 
forms of slavery worldwide and take action. Many, if not all, 
are children like me with mothers like mine.
    My classmates and I have grown into talented, smart and 
determined abolitionists. We have been questioned by some, but 
we will not give up. We will call upon you until you take real 
action. We hope to be the all-star team of kindness. We love 
all people even those who criticize us for our actions. Love is 
what life is all about. You may be thinking this is just a 
waste of time, but this is a matter of life and death.
    This is also a matter of upholding the greatest principals 
that are the foundation of your future and mine.
    I thank you for taking the time to listen to my heart.
    The Chairman. Charles, we thank you. Kristin.

  STATEMENT OF KRISTIN YOUNG, STUDENT, MEMBER OF THE S.T.O.P. 
                            CAMPAIGN

    Ms. Young. I am Kristin Young and I am an abolitionist in 
the S.T.O.P. Campaign. We are children and adults that fight 
against the worst atrocity of modern times, slavery. I would 
like to ask the President of the United States and the Congress 
if they would help us to stop this human rights violation. The 
Sudanese are beautiful African people that are being enslaved, 
beaten, raped, murdered, and mutilated just because of their 
color, religion, and because of greed. Two million have died 
and as I speak, many more are being hurt and killed. This must 
stop. These beautiful people are just like us, no different, 
and they need their freedom just like you and I.
    If you take their freedom away, you have taken away their 
lives. They have no hope. They live only with sorrow. I hope 
you will understand what is really happening to these loving 
people. Sudanese do not need to suffer and hurt every day. Just 
think if you were one of those sweet and caring people living 
under this violation of human rights. I myself spent a day in 
D.C. with an escaped slave named Francis Bok who was so sweet, 
intelligent, and caring. He had soft, beautiful black skin and 
loving face. I was hurt inside when I met him because he was 
enslaved as a child and abused just because somebody did not 
want to do their own work. When I met the other Sudanese, I 
broke into tears and was broken hearted. I could see the pain 
in each of their eyes and hearts. I crumbled in my teacher's 
arms and wept.
    I hope to speak with the President of the United States and 
tell him what I feel. I am upset and angry because we have done 
so much to help these people, but we can't do it all. I will 
ask him again to help us stop slavery. How many more letters do 
I have to write before he listens to me? We have written the 
government for three years now.
    I appreciate all of your support and I know many of you 
here have tried to get the President to listen and act. I need 
your help to eradicate slavery in Sudan. Thank you.
    The Chairman. Thank you. Now, Nicole, if you will pull the 
mike over towards you and speak right into it. Sam, have you 
ever been more impressed with any witnesses?
    Senator Brownback. No, I have not been.
    The Chairman. You may proceed.

  STATEMENT OF NICOLE CIMINO, STUDENT, MEMBER OF THE S.T.O.P. 
                            CAMPAIGN

    Ms. Cimino. For the past two years I have been one of the 
many children participating in the S.T.O.P. Campaign. I joined 
this campaign feeling shocked about how people can treat other 
human beings in a manner where they kill and beat them because 
of greed. When I walked into the fourth grade, I had no idea 
that this was going on and I knew immediately that I wanted to 
help stop it. The objective of the S.T.O.P. Campaign is to 
bring awareness to the world about the horrific tragedies going 
on in Sudan. Many people have become aware and have joined our 
awareness campaign.
    Some of the things I have learned and am trying to make 
other people aware of is that two million people have died and 
more are dying each day. Children are separated from their 
parents, and many inhuman things are happening. Slavery is not 
only going on in Sudan, but it is also going on in other parts 
of the world. It is estimated that over 27 million people are 
in some form of slavery today. Most of them children, just like 
me and their mothers, just like mine. We must remember that it 
only takes one person to make a difference and caring is never 
too complicated.
    Unfortunately, not all of my classmates could be with us 
today, but the following are some of the things that they have 
said regarding this subject. Amandeep Kaur says, ``Freedom is 
what everybody needs, but not everybody has it. So, if you are 
free, use your great heart to help others gain their freedom.'' 
Alex Persinger says, ``Power is in people! Don't be lazy, take 
action to help others.'' Miriam Moreno says, ``There is a sin, 
a sin from the past and kids are doing something about it.''
    We need to stop this tragedy and we need your help in doing 
this. It is, of course, the moral thing when seeing another 
human being suffer to look after them.
    We have continued to bring awareness about this issue and 
will not stop until it ends, but you are the ones who can put 
an end to the torture of these people.
    Martin Luther King, Jr. once said that, ``The greatest sin 
of our time is not the few who have destroyed, but is the vast 
majority who have sat idly by.'' Please don't be the one who 
sits idly by and let these people continue to suffer. Stand up 
with us for what is right and stop this crime for humanity.
    The Chairman. I know this crowd here wants to applaud these 
children. [applause] Thank you very much. Barbara let me go 
back to you please, madam. When you came to see me, you met 
with me in the Capitol. You remember that.
    Ms. Vogel. Yes.
    The Chairman. In the other hearing room with the Foreign 
Relations Committee. And you had a bunch of folks with you 
then. And I fell in love with every one of them. Now, I want 
you to review maybe briefly how many young people do you have 
in this class? And when did you start your working with these 
young people?
    Ms. Vogel. I started in February 9th, 1998 when just after 
teaching a unit of American history about slavery. I had taught 
my children that indeed chattel slavery was a thing of the 
past, owning people as property and trading them for goats and 
guns and things. I did not know that was in the world. And so I 
had taught them wrong.
    And that very weekend, I found an article in the Rocky 
Mountain News about slavery in Sudan. And I myself was broken 
hearted. And I knew that I owed it to my students to let them 
know that I indeed had taught them wrong. So we meet every 
morning and every afternoon in what we call family group. And 
that morning, I took it in, this article, and I read it to 
them.
    And in my over 25 years of teaching, seeing the shuttle 
blow up in our faces on TV, seeing the horror in children's 
faces then, dealing with the tremendous emotions with the 
Oklahoma bombing with my students, my children, and, of course, 
the Columbine issue.
    But I have to tell you honestly nothing--nothing--prepared 
me for the reaction from these students. They sat at my feet 
when they heard the story about a young girl and how she had 
been ripped away from her mother and they cried, boys and girls 
alike.
    So since that time, the first thing they asked me is what 
are we going to do about this? The very first thing. So since 
that date, we began our awareness campaign. And we will be 
here.
    The Chairman. You have done well. How many children are at 
home? We tried to arrange earlier so we could get them all 
back, but things happened and that did not work out. But this 
is a fair representation of the young people I saw that day and 
hugged and got hugged by. And we did a little crying that day.
    I want to ask the young people what is the most important 
thing that you have learned about slavery and Sudan while 
working with Ms. Vogel? Anybody want to volunteer to answer 
that?
    Mr. Cho. What I have learned from S.T.O.P is the power of 
one. It means that one person can make all the difference. The 
Sudanese government, the bad people, have kept their people in 
bondage. And they are the ones that are causing it. And they 
are growing because no one will stand up. But if one person, 
just one stands up, then they could make all the difference.
    The Chairman. Do the other children in your school know 
about this program?
    Ms. Vogel. Yes.
    The Chairman. What kinds of things do you think would make 
them want to help you if they are not already helping you?
    Ms. Vogel. I think we look at these children today and we 
think that they are extraordinary. They are extra wonderful. 
And to me in my heart they are. But they represent all 
children. I think all children, if they are given a chance--and 
that is what I love about the campaign is that if they are 
given a chance to speak their mind and to follow their hearts, 
they will stand up as these children have.
    The Chairman. Nicole, are you familiar with the Good 
Samaritan, the story of the Good Samaritan?
    Ms. Cimino. No.
    The Chairman. Well, it is a biblical story about a man who 
had been beaten by robbers and he was near death. And they had 
stripped him of his clothes and taken his money and so forth. 
And people just walked by him.
    And then came one man, the Samaritan. And he stopped and 
bound his wounds and found some clothes for him, gave him 
something to eat, gave him some money. And he went on about his 
business. To me, you young people are Good Samaritans. Sam.
    Senator Brownback. Thank you, Mr. Chairman. Thank you all 
for being here. I deeply appreciate your work, your heart. 
Charles, your statements there about taking a minute to listen 
to your heart, how many children in the world we need to do 
that to and hear the purity of your statements and your 
thoughts that you have. I am curious, Barbara, in having this 
situation here, I would like for you to or one of your--some of 
your kids to speak out if there are other classes, children, in 
this country, teachers watching that want to become a part of 
this abolitionist movement, this youth abolitionist movement, 
how can they do that? What could they do?
    Ms. Vogel. If you would permit me, could I read my 
statement? And I think that that would answer that.
    Senator Brownback. Please.

    STATEMENT OF BARBARA VOGEL, FOUNDER S.T.O.P. CAMPAIGN, 
       EDUCATIONAL DIRECTOR, AMERICAN ANTI-SLAVERY GROUP

    Ms. Vogel. Well, first of all, thank you. More than words 
can ever express for having this hearing. When my students and 
I came to Washington in June, we met with over a dozen 
Congressmen on the issue of slavery in Sudan. Senator Helms, 
you were kind enough to take time out of your very busy 
schedule to hear our abolitionist message. Senator Helms, you 
heard the pleas of these young patriots. You looked into their 
hearts and into their eyes. And you saw their passion. And we 
are here today because of you.
    Three years ago, my students and I climbed to a mountain 
top in the Rockies and we shouted out for freedom. My ten year 
old students stood on the mile high mountain and called out for 
an end to the enslavement of children like themselves and 
mothers like their mothers.
    We are from Colorado. When we shout from our high 
mountains, our message carries far. And today, it has carried 
to these Senate chambers. And we thank the distinguished 
members of this committee for taking the time for us.
    You may think that we are here to talk about Sudan. But we 
are really here to talk about America, about how we Americans 
use our freedom.
    My students and I are here today to tell the story of our 
campaign against slavery, but also to make all of you a part of 
that story.
    If my elementary school students have exercised their 
liberty to bring freedom to enslaved children in Sudan, then 
surely the most powerful political leaders of America can do 
the same.
    On February 9th of 1998, my students were devastated when I 
read them an article from our local newspaper about the 
enslavement of women and children in Sudan. We had just 
finished a unit on slavery in American history and we thought 
slavery was over.
    But suddenly, my students knew that children their own age 
are abducted and sold into slavery, that children their own age 
are ripped from their parents, beaten, forced to work, raped 
and murdered just because of who they are.
    One of my students asked the obvious but profound question 
have we not learned from our past? I believe that students 
should think globally and act locally. So when the students 
asked what are we going to do, I took that question seriously.
    We began to research the issue and we found ourselves 
writing letters to the editor, collecting pennies in a jar and 
becoming activists. These efforts became the S.T.O.P Campaign 
which stands for Slavery That Oppresses People.
    Our goal? To educate ourselves, our community and the world 
about modern day slavery.
    In these three years since we launched this campaign, we 
have carried the message that Americans cannot sit by and enjoy 
our freedom while others remain in bondage. We have been 
unrelenting and so unrelenting that Time Magazine has called 
S.T.O.P. ``the Children's Crusade.''
    We call ourselves abolitionists, after great Americans like 
Harriet Tubman and Frederick Douglass. We are an organization 
of children helping children. We have raised money to help 
redeem hundreds of slaves in Sudan. And we have helped educate 
Americans through pieces in the New York Times, on CBS Evening 
News. And for years now, we have been appealing to American 
leaders to take action.
    And I must interject that I am not sure the people in these 
empty seats heard our appeals.
    Some of my students have permanent calluses on their 
fingers from writing letters--hundreds which have gone 
unanswered.
    Senators, we are not here to give you a laundry list of our 
accomplishments. And you did not invite us here today just to 
pat us on the back. We know what we are doing to fight slavery. 
Today we want to know what you will be doing to fight slavery.
    We are here to ask why our government has not received our 
message. We have pleaded loudly and clearly. We have followed 
our conscience and the theme of democracy: that we have an 
obligation to share the blessings of freedom, and to speak out 
against injustice wherever it occurs.
    I want to be clear. Many American leaders have responded, 
and I want to give our thanks to Senator Sam Brownback, 
Congressman Donald Payne, and our own Congressman Tom Tancredo 
for their wholehearted support. They went so far as to travel 
to Sudan to verify the conditions there, and have returned with 
a strong sense of commitment. We thank Dr. Susan Rice at the 
State Department, who met with the students and responded with 
sincerity and with encouragement.
    But on the whole our government has been deaf to our pleas 
to help end the atrocities in Sudan. The President remains 
silent on the issue of slavery in Sudan, and on the broader 
issue of human rights violations, which he has promised to 
address in all countries, no matter what the nationality, 
religion, or color of the victims. Presidential candidates of 
both political parties have not addressed these human rights 
violations.
    Why--why must the women and children of Sudan continue to 
suffer? We can never say that we did not know. Radio, 
television, newspapers, letters, and now the voices of these 
children will forever stand in testimony that you, the leaders 
of this country, do know.
    The American people know, for they are being led by these 
children. As adults, we must be ashamed if we fail to heed 
their cries.
    We are told that the problem is too complicated, that 
political and economic problems are interconnected in this 
human tragedy. Senators, even my children can understand that 
the world is large and complex. But they refuse to give in to 
these arguments. Where there is greed, they bring generosity of 
spirit. And where there is apathy, as witnessed by these empty 
seats, they bring commitment. Where there is hate, they bring 
only love.
    Senators, please support these children who have come 
before you today. If you do not, what can I possibly teach 
them?
    The Chairman. Take your time. Bless your heart. You are 
doing well. You are making the point.
    Ms. Vogel. Can I still teach them that our government 
stands for fight and for freedom? Can I still teach them that 
our country stands for principles more than practicality?
    The Chairman. There is some Kleenex for you.
    Ms. Vogel. Thank you. I promised I was not going to do 
this. Can I still tell them--can I still tell them that we are 
the home of the brave?
    Senators, if you leave these hearings today and do nothing, 
it is not just slaves in a far off country who will suffer, 
What is at stake is also the future for our children--in every 
state--who have raised their voices and asked for help because 
they believe this is the land of freedom.
    We have heard in this election year claims from both 
parties that they will leave no child behind. But today we are 
leaving behind thousands and thousands of enslaved African 
children in Sudan. And by doing so, we are leaving all of our 
own children behind. Today, I repeat to you the question my 
students asked the instant they learned about slavery in Sudan: 
``Haven't we learned from our past?''
    The idea that inspires the S.T.O.P. Campaign was 
articulated decades ago by John F. Kennedy. Just months before 
his assassination, President Kennedy toured West Berlin and 
looked over the Berlin Wall. He was shocked by what he saw, and 
he challenged the free world to action by declaring: ``Freedom 
is indivisible, and when one man is enslaved, all are not 
free.''
    Last October, I understood for the first time what 
President Kennedy meant. I traveled not to West Berlin, but to 
Southern Sudan. I sat there and I looked into the eyes of 4,300 
mutilated and beaten mothers and children. 4,300 African women 
and children who had just been redeemed from slavery by the 
brave rescuers at Christian Solidarity International.
    I was there to welcome these thousands of African civilians 
back to freedom, and I expected to find them broken and 
devastated. When I looked into their eyes, I saw deep pain that 
will forever haunt me. But I also saw staring back at me a 
proud and resilient people. A people on the frontlines of a 
genocide who refuse to submit.
    In 1963, President Kennedy challenged the world to come to 
Berlin to appreciate freedom. ``There are many people in the 
world,'' he noted, ``who really don't understand, or say they 
don't, what is the great issue between the free world and the 
communist world. Let them come to Berlin.''
    Senators, there are some today who do not understand--or 
say they do not--what is so pressing about modern day slavery? 
Let them come to Sudan. There are those who do not yet 
comprehend the responsibility and the power of the freedom that 
they possess. Let them come to Sudan. Let them come to Sudan 
and look into the face of Sudan.
    It was in Sudan that I realized that I was not the rescuer. 
I was there as a representative of a nation that needs its own 
rescuing. The enslavement of black women and children in Sudan 
is not merely a tragic by-product of some distant conflict. It 
is a direct challenge to our Nation. Will we squander our 
freedom for frivolous pursuits? Will we let our silence condone 
slavery? Or will we triumph over America's own terrible legacy 
of slavery by extending emancipation to millions who remain in 
bondage?
    It may sound odd, but I believe the enslaved women and 
children of Sudan can be the key to our hope and to our own 
redemption. My students instinctively realized this three years 
ago. I trust the United States Senate now agrees, and that you 
will all move forcefully and quickly against slavery in Sudan 
and around the world. I thank you.
    The Chairman. Thank you. It was very eloquent and 
meaningful remarks. I wish our preachers had as good sermons as 
you have just given us. Well, I thank you all. And we have 
another two panels to hear from. So we will ask you to have a 
seat somewhere back there. Bertie, if you will make 
arrangements for them to have seats, I would appreciate it. 
And, thank you, young people, Nicole and Kristin and Charles, 
Stacy. I do not know how to pronounce your name, Dong.
    Mr. Cho. Just say Dong.
    The Chairman. Okay. You are better at it then I am. This 
has been a meaningful morning. And, lady, I say to you, God 
bless you.
    Ms. Vogel. He did, Senator Helms. He put you in our lives. 
Thank you.
    The Chairman. All right. We will setup for our next panel. 
Dr. Charles Jacobs, President of The American Anti-Slavery 
Group. He is from Boston, Massachusetts. Mr. Francis Bok, 
associate of The American Anti-Slavery Group in Boston. If you 
two gentlemen will have a seat. And if you will proceed, we 
have one more panel after you.
    Dr. Jacobs. Thank you.
    The Chairman. But I will say to you, Dr. Jacobs, that is a 
hard act to follow, is it not?
    Dr. Jacobs. It sure is.
    The Chairman. Well, you may proceed. And we are delighted 
that you came this morning and appreciate your coming.

   STATEMENT OF DR. CHARLES JACOBS, PRESIDENT, AMERICAN ANTI-
                         SLAVERY GROUP

    Dr. Jacobs. Thank you so much, Senator Helms, Senator 
Brownback. I am here today to present to the committee Francis 
Bok, the first escaped slave from Sudan who we have found who 
speaks English and can speak both as an eyewitness and survivor 
of slave raids and of human bondage in Africa's largest nation.
    Permit me first a few prepatory remarks first. Immediately 
before this hearing, I would like you to note that the most 
senior members of the African-American community in this Nation 
joined with us in a press conference to announce the birth of 
the 21st century's abolition this movement.
    We had Congressmen from the Congressional Black Caucus, 
leader Donald Payne and Eleanor Holmes Norton. We had a former 
Representative Walter Faunteroy, who was the man who organized 
Martin Luther King's March on Washington. We had the Joe 
Madison, a radio talk-show host in D.C. who has just returned 
with John Eidner from redeeming 4,400 people in Sudan. We have 
statements from Dick Gregory and from Coretta Scott King.
    This changes everything, Senators. This changes everything. 
We now have a national abolitionist movement of liberals and 
conservatives, Democrats and Republicans, Blacks and Whites, 
Christians, Jews and Muslims. We are very proud of this, and I 
want to thank you for helping us make this happen.
    Next, we heard yesterday that Secretary of State Albright 
will meet with us this afternoon, will meet with Barbara Vogel 
and her children and her students and with Francis and myself.
    If we are here today to explore how we can help Francis's 
people, then Congress, and specifically the Senate, can do 
three things. First, a little-known provision of the House 
Resolution 4868, which passed this July, lifts sanctions on gum 
arabic which is Sudan's major export. Gum arabic is found in 
such products as Mountain Dew and M&M's. There is no reason in 
the world why lobbyists for that product and for these products 
can convince the American people that we ought to buy products 
from slaving nations.
    An article today in the Washington Post by Congressman 
Menendez says, sorry, it is true. No one should do business 
with thugs. But if they control the product that we cannot seem 
to live without, what can we do? The answer is made do not 
control--we let them control that product. We have not 
developed gum arabic in other places and specifically in south 
Sudan where Francis's people can grow all the gum arabic we 
need.
    So, with a little investment, I propose that we free 
ourselves from slave products and help the people of South 
Sudan build an economy.
    Secondly, millions of Americans have been made inadvertent 
partners to slavery and slaughter in Sudan because their 
pension funds and their mutual funds contain the stock of 
Talisman Energy. Talisman of Canada is helping Khartoum steal 
the oil from under the feet of these people in the south, 
export it and with the profits, they brag, continue their holy 
war against Francis's people.
    Why should Americans have in their stock portfolios, 
unbeknownst to them, slave stock? We know that we have led, 
along with Eric Reeves, a professor of Smith College, a 
divestment campaign against Talisman and we can win. We have 
gotten TIAA/CREF, the world's largest pension plan, to divest 
completely. Last week, the city of New York, divested its 
worker pension fund of Talisman. The State of New Jersey, 
Donald Payne's state, divested. The State of California, the 
Texas Teachers Retirement Fund divested.
    But Congress must also act. And I know that this committee 
in the course of passing the Sudan Peace Act confronted the 
issue of capital market sanctions against those participating 
in Sudan's Greater Nile Project. Denying them a New York Stock 
Exchange listing would bring powerful pressure to bear which 
would be acutely felt.
    Finally, there is a regional drought now in Sudan. The 
people of south Sudan may once more become purposely starved. 
As you know, the U.N. flights, aid flights, under Operation 
Lifeline Sudan, are controlled by Khartoum. And that 
arrangement purposely starved 100,000 in 1998 according to the 
U.S. Committee on Refugees. We do not yet have pictures of 
starving people. Let us not wait. We need to give direct aid to 
the people of south Sudan, direct food and medical aid. We can 
give it to the NGOs that operate outside the U.N. Khartoum 
program, like Norwegian People's Aid. We can give it directly 
to the civil society in the south so that they can take care of 
their own health and education and relief efforts. We can give 
it directly to the churches in Sudan. We must break this food 
blockade.
    And finally, the people this morning with whom we met, the 
Coalition of the Black Caucus, backs us 100 percent on this. We 
are pleased to note that Secretary of State Albright is 
lobbying against the U.N. giving a seat on the Security Council 
to Sudan. This must never happen. This must never happen. They 
do not deserve a seat at that table.
    Finally, we call upon the President to break his silence on 
Sudan. He must not leave office without having said the truth 
about human bondage in Africa's largest nation.
    Now, I am honored to present to the committee Francis Bok 
of south Sudan, a man who values freedom so much that he risked 
his life three times to be free of bondage. The American Anti-
Slavery Group found Francis in Ames, Iowa, a refugee. We 
brought him to Boston where he works with us and goes to school 
full-time. Like Frederick Douglas before him, Francis is using 
his freedom to help his people. He speaks to congregations and 
churches and in community centers around the nation. Today he 
speaks to you, the leaders of a nation that tore itself apart 
over the issue of one man owning another.
    Francis is a lucky man. Most boys captured in Sudan when 
they reach puberty and develop musculature had their throats 
cut. Francis is a miracle that he is here.
    And that is one reason why the American Anti-Slavery Group 
in the face of criticism continues to help our brave, brave, 
brave partners of Christian Solidarity International fly to 
Sudan and redeem people. They have taken over 35,000 women and 
children from out of the hands of monsters.
    I would like to acknowledge the presence here today of the 
world's most precious abolitionist John Eidner of CSI. John is 
behind me. John risks his life time and time again to run the 
CSI underground railroad. And we stand by his side.
    We take Francis's presence here, again, as miraculous. And 
we hope you see in him the spokesman of an entire people on 
whom the world has turned its back. Thank you.
    [The prepared statement of Dr. Jacobs follows:]

                Prepared Statement of Dr. Charles Jacobs

    Mr. Chairman:
    I am here today to present to the Committee Francis Bok, the first 
escaped slave from Sudan that we have found who speaks English and can 
speak as both eyewitness and survivor of slave-raids and human bondage 
in Africa's largest nation.
    Permit me first, please, a few short preparatory remarks.
    If we are here today to explore how we can help Francis Bok's 
people, then the Congress, and specifically the Senate, can do three 
things:
    A little known provision of the House Resolution 4868, which passed 
this July, lifts trade sanctions on gum arabic, a chief export of the 
Islamic Republic of Sudan. Gum Arabic is used to make printers ink, 
soft drinks and candy. For years, lobbyists for these products have 
pleaded for more time to develop alternative sources, and they have 
continually gotten extensions. Yet there is no evidence that we are 
aware of that any serious efforts have been made to expand production 
of gum arabic in other nations. Surely other African countries which 
border Sudan--but which do not murder and enslave people--could develop 
the components to supply us with all we need. To quote a recent 
Washington Post editorial, ``if America now scraps sanctions on gum 
arabic, its virtuous diplomacy will be drained of authority.'' We ask 
the Senate to uphold the sanctions.
    Millions of Americans have been made inadvertent partners to 
slavery and slaughter in Sudan because their pension funds or their 
mutual funds contain the stock of Talisman Energy. Talisman of Canada 
is helping Khartoum extract, refine, and export oil--from under the 
feet of the people targeted for destruction in the South--and use the 
profits from that oil to finance the National Islamic Front's ``holy 
war.'' Khartoum officials have bragged they will use oil money to 
finish off their campaign. The American Anti-Slavery Group has led a 
divestment campaign against Talisman that has resulted in the complete 
divestiture of that stock from: TIAA-CREF (the world's largest 
retirement fund), the states of New Jersey and California, the City of 
New York, the Texas Teacher's Retirement Fund, and more. No American, 
who understands what is at stake, wants to profit from the slave trade.
    But Congress must also act. This Committee has, in the course of 
passing the Sudan Peace Act, confronted the issue of capital market 
sanctions against those participating in Sudan's Greater Nile oil 
project. I urge you to revisit the question of using capital market 
sanctions--an extremely potent tool--against those who profit directly 
from Sudan's ongoing agony.
    Capital market sanctions--denying a New York Stock Exchange listing 
to Talisman Energy of Canada would bring powerful and targeted pressure 
to bear, pressure which will be felt acutely in Khartoum. If we are 
serious about getting the National Islamic Front regime to negotiate 
peace in good faith, then we must make it emphatically clear that 
American capital markets will no longer have a place for those who 
invest in Sudan's oil development project.
    There is a regional drought. The people of South Sudan may once 
more be purposely murdered through a government campaign of forced 
starvation. As you know, the UN aid flights under Operation Lifeline 
Sudan are controlled by Khartoum, which forbids or interferes with food 
and medicine deliveries. The U.S. Committee on Refugees found that 
100,000 lives were lost when Khartoum forcibly starved the South 
Sudanese population in 1998. In addition, Khartoum bombs village 
schools, hospitals, markets, and has even bombed UN planes.
    We need now more than ever to break this aid blockade. We already 
contribute directly to NGO's outside of the UN-Khartoum program, like 
Norwegian People's Aid. We need to expand these programs dramatically. 
We also need to give direct aid to the civil society in South Sudan--
for if not, tens of thousands may again starve. The drought has just 
started. We do not yet have pictures of starving people, but let us not 
wait until we do.
    Now, I am honored to present to the Committee Francis Bok of South 
Sudan, a man who values freedom so much that he risked his life three 
times to be free from bondage. The American Anti-Slavery Group found 
Francis, a refugee in Ames, Iowa, five months ago. We brought him to 
Boston, where he works with us and goes to school full time. Like 
Frederick Douglass, Francis is using his freedom to help free his 
people. He speaks to congregations, on campuses, and in community 
centers around the Nation. Today, he speaks to you, the leaders of a 
Nation that tore itself apart over the issue of one man owning another.
    Francis is a very lucky human being: many boys captured and 
enslaved in Sudan do not make it past puberty. When they begin to 
develop musculature they have their throats cut. We take Francis's 
presence among us today as miraculous. We hope you will see in him the 
spokesman of an entire people on whom the world has turned its back.

The editorial to which Dr. Jacobs referred follows:

                           Spineless on Sudan

                          The Washington Post

                           September 10, 2000
    SECTION 1439 of a trade bill known as H.R. 4868 is an obscure 
provision about an obscure product, and almost none of the House 
members who voted last July for the bill had any idea of its 
significance. Yet unless the measure is killed in the Senate, it will 
damage America's claim to conduct a moral foreign policy.
    The provision lays down, in mind-numbing language designed to 
conceal its purpose, that sanctions on gum arabic will be suspended. 
This substance, which is used by printers (including printers of 
newspapers) and makers of soft drinks, happens to be one of Sudan's 
chief exports. The government of Sudan condones slavery, sponsors 
terrorism and routinely bombs its own civilians; therefore the 
administration imposed sanctions three years ago. Recently Sudan bombed 
and attacked United Nations and Red Cross relief workers and 
facilities. The argument for sanctions is as strong as ever.
    Because the case is so compelling, the administration is currently 
lobbying at the United Nations to prevent Sudan from taking up a two-
year seat on the Security Council. Secretary of State Madeleine 
Albright has declared her sympathy not only for sanctions but for 
campaigns to dump shares in foreign companies with Sudanese interests. 
Her officials have accused European allies who are soft on Sudan's 
government of abetting its inhuman policies. If America now scraps 
sanctions on gum arabic, its virtuous diplomacy will be drained of 
authority.
    The provision to scrap the sanctions is all the more egregious 
because they have been greatly watered down already. To the dismay of 
some within the administration, the White House compromised its 
sanctions policy at the outset by agreeing to grant limited licenses to 
buy gum arabic from Sudan. But Rep. Robert Menendez, who backs the new 
provision in behalf of two companies in his district, regards that 
concession as inadequate. He argues that the licensing system is 
cumbersome, and that European traders take advantage of the 
restrictions to buy Sudanese gum and sell it to U.S. firms. But the 
right answer to this problem is to seek European cooperation, not to 
copy European, fecklessness. The policies of Sudan's government have 
contributed to the deaths of more than 2 million people. Set against 
that horrifying number, complaints about the inconvenience of licenses 
sound grotesque.

    The Chairman. Thank you.
    Well, Francis, it is good to see you again. We had a good 
visit back in June. And I am glad to see you here and I 
appreciate you coming. And I know Senator Brownback feels the 
same way.
    Senator Brownback. Yes. Thank you both for being here. And 
Charles came and we visited in Kansas as well about this. And I 
to want to add my recognition of John Eidner who I have met 
with several times at Christian Solidarity International.
    I was delighted to hear, Dr. Jacobs, about the alliance 
coming together. I think that is really what this has needed is 
that happening. And that appears to be starting.
    The Chairman. Francis, if you will proceed.

  STATEMENT OF FRANCIS BOK, ASSOCIATE, AMERICAN ANTI-SLAVERY 
                             GROUP

    Mr. Bok. Thank you, Mr. Chairman. And thank you, Senator 
Brownback. Thank you for the time to be here today with you. My 
name is Francis Bok. I have been living in this great country 
for only one year now. I am sorry for my English; but I am 
proud to speak here today, because I speak for my people. My 
people have been killed. And my people are being made slaves. 
Many, many boys and girls. This damages girls and boys. They 
are slaves. These children could not be here even if you 
invited them.
    I was born in southern Sudan near Nyamllel. When I was 
seven, my mother sent me to the market to sell eggs and beans. 
I never saw my mother again.
    At the market, the militia soldiers attacked. Hundreds of 
Arabs on horses came into market shooting. They shot people in 
the head. And they cut off heads with this swords. And the 
streets were a river of blood.
    They took me and many children as slaves. They put me in a 
big basket tied to a donkey, and they took us north.
    One girl had seen her parents killed, and she would not 
stop crying. So they shot her in the head. Her younger sister 
started crying. So they cut her foot off. I was quiet.
    In the north, I was given as a slave to Giema Abdullah. He 
took me to his family, and he beat me with sticks. All of 
them--the women and children too--they laughed and they called 
me ``abeed, abeed'' meaning black slave.
    For ten years, they beat me every morning. They made me 
sleep with animals. And they gave me very bad food. They said I 
was an animal. For ten years I had no one to laugh with. For 
ten years nobody loved me. But every day I prayed to God.
    One day I asked my master a question: ``Why do you call me 
abeed? And why do you feed me bad food all the time and make me 
sleep with animals? Is it because I am black?'' My master was 
very angry. ``Where did you learn to ask me this question?,'' 
he said. ``Never ask me again.'' And he beat me and beat me.
    When I was 17, I decided to escape. I would rather die than 
be a slave.
    I ran away, and I came to a police station. ``Please help 
me,'' I told the police. But they kept me as their slave and 
made me do work for them all day. After two months, I ran away. 
An Arab truck driver helped me escape. He hid me in his lorry, 
and he helped me to get to Khartoum, the capital.
    When I came to Khartoum, I did not know anybody, but some 
of my people, the Dinka, who were living there took me in. I 
told them my story and they could not believe I escaped. But 
they were very happy for me.
    Then four days later, the secret police came to my room. 
They said, ``Are you telling people that you are a slave who 
escaped?'' I said no because I was scared. But they took me and 
they put me in jail. There was no light. I was just 18. I had 
no lawyer and no trial. What was my crime? I was an escaped 
slave, and the government of Sudan did not want me to tell my 
story.
    After five months, the Sudanese police let me out, and I 
escaped to Egypt. In Cairo, I went to the United Nations 
Refugees Office, and on August 19th of 1999, I flew to the 
United States.
    I was living in Iowa when the American Anti-Slavery Group 
found me. Today I am working in Boston with the American Anti-
Slavery Group. I am going to school for the first time in my 
life.
    I am a lucky man, and I am free. But my people are dying. 
And around the world, there are 27 million slaves who cannot 
speak. Today I must speak for them.
    Senators, we have a big question. Why is President Clinton 
silent about slavery in Sudan? And why is the world silent? 
This is a country that freed slaves. But my people are still 
slaves. Will the United States come and free us? When I was 
living as a slave to Giema Abdullah, I would lie away at night. 
I could not sleep. I would think: ``When am I going to be free? 
Is someone going to come and free me?''
    Today in Sudan and around the world, there are children who 
cannot sleep at night. They lay on the ground and they are 
waiting for strong people to come to free them. Senators, you 
are strong people. You have big voice and strong arms. You can 
free slaves.
    Senators, I am here alone. I have no family here. But you--
the people of the United States--you are my family. And I know 
you will free my brothers and sisters.
    For all the people who are still slaves in Sudan, I say to 
you: thank you very much.
    The Chairman. And certainly we thank you very, very much. I 
was just thinking, and I am going to mention it to the staff 
and public, in order to get the impact of what Francis has just 
said, Mr. Bok, you need to read the text of it. And anybody 
here who wants the text, let us have your name and address. And 
people looking on television, if you will let us know, we will 
send you statements of testimony here today not only by Francis 
Bok but by others. We must get the word out. That is what they 
are saying to us. That is what you are saying to us, Francis. 
And you are right. And we will try. I thank you very much. And 
we have the third panel ready to go. Did you have something you 
wanted to say?
    Senator Brownback. No, I think that would be good to get 
the third panel up.
    The Chairman. Yes. Thank you very much, doctor.
    Mr. Bok. Thank you very much for having time for me today. 
Thank you. I really appreciate this.
    The Chairman. I guarantee you that there are people who 
care in this room and in this country.
    Mr. Bok. Thank you.
    The Chairman. God bless you.
    Okay. It's all yours.
    Senator Brownback. Mr. Chairman and those watching in the 
audience, this hearing is about slavery throughout the world. 
We have heard mostly about the Sudan. And I had contacted the 
Chairman to also add an additional set of witnesses about 
slavery and other places around the world as well. And the 
Chairman has graciously agreed to allow me to introduce these 
witnesses that are testifying here now.
    As I mentioned in my opening statement, Dr. Kevin Bales is 
an author. He is from England. He has a book out on Disposable 
People. It is a horrible title. I wish it were not true. But it 
is compelling reading that he has put forward about people 
enslaved, abducted, held against their will in horrible 
conditions. He will be the first to testify on this panel. The 
second will be Mr. Moctar Teyeb. I have met with Moctar in my 
office about slavery and Mauritania. He has a horrifying tale 
to say there as well of institutionalized slavery that is 700 
years old and continues today. And the final witness on this 
panel will be Mr. Jean Robert Cadet who was a restavec in Haiti 
and has a book out on that topic as well.
    I wanted to put a face on slavery around the world and how 
this horrible institution in the year 2000 continues to exist. 
So, Dr. Bales, if you would care to start out, and then we will 
go to Moctar and then Mr. Cadet.

      STATEMENT OF DR. KEVIN BALES, TRUSTEE, ANTI-SLAVERY 
                 INTERNATIONAL, UNITED KINGDOM

    Dr. Bales. Thank you, Senator Brownback. I know Senator 
Helms said a moment ago it was a hard act to follow after the 
children. It is so true. You mentioned a child should lead 
them. I was certainly struck by a thought from the same part of 
the Bible that if we only had a faith of those children, we 
would move those mountains that they put before us. And my mind 
also ranged over to Acts II when the Apostle says in those 
days, even the slaves will prophesy. Maybe that day has reached 
us. And I am very pleased and proud to be here for. Thank you.
    I cannot tell you how encouraged I am that the subject has 
been taken up by the Senate Foreign Relations Committee. I am a 
Trustee of Anti-Slavery International in Great Britain. It is 
the oldest human rights organization in the world, set up by 
the nineteenth century abolitionist William Wilberforce, among 
others.
    I have recently set up an independent charity in the United 
States which will also work with the American people to end 
slavery around the world. And we are very keen to build a 
positive relationship with government.
    This morning I would like to touch on just four points: the 
nature of modern slavery, how slavery touches our lives, the 
urgent need for a consistent approach to slavery by the United 
States government, and some practical suggestions about how we 
can use our influence to end slavery.
    Slavery, real slavery, has increased dramatically across 
the world over in last 50 years. It has grown rapidly in part 
because of the belief among the public and even governments 
that slavery was ended in 1865. For years I have traveled the 
world. I have been meeting slaves and slave holders and the 
people who are fighting slavery at the grassroots. And I can 
assure you, slavery is not dead. We have heard that this 
morning. We know that.
    My conservative estimate is that there are 27 million 
slaves in the world. This slavery, in addition to being an 
affront to any freedom loving people, is also a threat to the 
interests of American business and to our labor in the unfair 
competition that it represents.
    Let me be clear I am talking about slavery in its most 
basic form: the holding of people against their will through 
violence, paying them nothing and exploiting them economically. 
It is the same basic slavery that has dogged humanity for at 
least 5000 years. And it has today some very pernicious modern 
twists.
    For example, slaves today are cheaper than they have ever 
been in human history. Rapid population growth, the impact of 
modernization and globalization on the economies of the 
developing world has generated a bumper crop of people who are 
vulnerable to enslavement. When government corruption, 
particular police corruption, removes the protection of the 
state, violence can be used to turn the vulnerable into slaves.
    This is happening around the world. And once enslaved, the 
victims can be transported even to those countries where the 
rule of law is secure. Senator Brownback mentioned the CIA 
report. It estimates up to 50,000 people are brought into the 
United States each year. They may be forced to work as 
prostitutes or in sweat shops, as domestic servants.
    Moreover, slave-made products flow into our homes. Despite 
the clear prohibition on the importation of slave made goods in 
the 1930 tariff legislation, which is still in force, cocoa 
from West Africa, sugar from the Caribbean and South America, 
tobacco products from Asia, furnishings from the Indian 
subcontinent and a host of other slave-made raw materials and 
products flow into America.
    Earlier this year, we asked a slave who had been newly 
freed from a cocoa plantation in West Africa if he knew what 
happened to the cocoa he harvested. No, he said. Had he ever 
tasted chocolate we asked him. Again, no. So we asked him what 
would you say to those millions of people who eat this food 
called chocolate that is made from the cocoa you have grown? 
Then he said to us, ``tell them please when they eat chocolate, 
they are eating my flesh.''
    So the picture is a serious one. Millions of people 
enslaved and both slaves and slave-made goods are being bought 
and sold within United States.
    There are, happily, several positive points. The proposed 
legislation to address human trafficking is a tremendous step 
forward. The Alien Torts Claim Act opens up new mechanisms as 
yet untried, but new mechanisms for hitting slave holders in 
the pocketbook and for providing restitution to the enslaved.
    The funding given by the American government to the 
International Labor Organization for the rehabilitation of 
freed child slaves was the largest ever grant made for that 
work.
    On the other hand, there were several serious problems. The 
CIA report that Senator Brownback mentioned a moment ago, 
delivers one very clear message. American law enforcement is 
under resourced and uncoordinated in addressing the crime of 
slavery.
    New legislation will not help if it is not enforced. We 
have to avoid the situation in India, a country with one of the 
best and most comprehensive laws against slavery on the books 
and many, many slaves waiting for the enforcement of that law.
    Confusion exists in other parts of the government as well. 
We have had courageous statements, by Senator Brownback among 
others, about slavery in parts of Africa. Meanwhile, the State 
Department asserts that slavery has disappeared in some of 
those same countries. At times it seems that our government is 
choosing to recognize slavery according to its international 
political goals.
    I travel all over America talking about slavery. I have met 
and discussed our government's response to slavery with 
citizens across the country. Let me say very clearly what they 
would want you to hear. What is morally wrong cannot be 
politically right.
    America must not play politics with slavery. If we are to 
imagine ourselves a bastion of freedom, our political policy, 
our foreign policy must apply this principle in a way that is 
consistent and universal. Our belief in freedom is soiled, it 
is diminished, when we condemn slavery in one country, for 
example, Sudan, while turning a blind eye to slavery in 
another, for example, Mauritania.
    Now, I have to digress from my notes and say but you are 
not doing that. I am very, very happy to hear, as Moctar Teyeb 
right next to me, and we are going to be frank about the 
slavery in Mauritania.
    At the same time, while the problem we confront is large, 
the obstacles are not insurmountable. There are three key 
battles that have already been won. We do not have to win the 
moral argument. Everyone agrees slavery is wrong.
    Second, we do not have to win the economic argument. Ending 
slavery does not threaten the economic well-being of any state 
or industry.
    Third, we do not have to win the basic legal argument. Laws 
exist in virtually every country against slavery.
    And further, our own government's law enforcement policy 
suggests three tools that we could use to confront the problem 
of slavery in trafficking.
    First, the cooperation, funding and training of foreign law 
enforcement could be extended to help end the police corruption 
that supports slavery.
    Second, the skill and training that is applied to the 
interdiction of drugs could also be applied to stopping the 
smuggling of slaves into America. We have all seen inspectors 
in our airports, specially trained to pick out likely drug 
smugglers. But are those personnel trained to identify likely 
victims of the international slave trade? Of course, such 
inspectors would have to be trained to respect the rights of 
those who are trafficked. Or we would run the risk of punishing 
the victims.
    Thirdly, severe sentences and rules for confiscation need 
to be applied to those who traffic in people in the same way 
they apply to people who traffic in drugs.
    The CIA report calls for stronger penalties for human 
traffickers. More importantly, or very importantly, 
confiscation could help provide desperately needed resources 
for the rehabilitation of freed slaves.
    The profits made by traffickers and slave holders, come 
from the stolen lives of those who are enslaved. Any assets 
taken from traffickers rightly belong to their victims. In many 
ways, our country is still suffering from a botched 
emancipation. One that provided the right of freedom without 
the remedy of rehabilitation, both economic and social. We must 
not make the mistake again.
    And because this is a truly international crime, our 
government needs to press for more action within international 
agencies. We all know about United Nations teams that search 
for biological weapons in Iraq. We know about the international 
efforts to protect minorities in the Balkans. But where are 
United Nations' slavery inspection teams? Where are the 
contingents that protect freed slaves and help them towards 
reintegration? If there were such teams, they would be saving 
lives today in Nepal where a new law against slavery has been 
met with violent reprisals against freed slaves by slave 
masters.
    Of course, there is not a single solution to slavery. 
Slavery is embedded in both local cultures and the global 
economy. But our government has a marvelous collection of 
sticks and carrots. They could be tailored to specific 
situations. The government of Pakistan, for example, wants to 
maintain ties and build for itself a more positive image in the 
United States. We need to make it clear that a positive image 
is one that includes working actively to reduce the extensive 
debt bondage in that country. And as our government brings its 
power to bear, the rapidly growing public movement calling for 
action on slavery will support it.
    The American people and the American government have to ask 
this question. Are we willing to live in a world with slaves? 
If not, we are obligated to take responsibility for the things 
that are connected to us, even when they are far away. Unless 
we work to understand the links that tie us to slavery and then 
take action to break those links, we are puppets, subject to 
forces that we cannot or will not control. If we do not take 
action, we are just giving up and letting other people jerk the 
strings that tie us to slavery.
    Of course, there are many kinds of exploitation in the 
world. There are many kinds of injustice, violence, to be 
concerned about. But slavery is exploitation and violence and 
injustice all rolled together in its most potent combination.
    If there is one fundamental violation of our humanity we 
cannot allow, it is slavery. If there is one basic truth that 
virtually every human being can agree upon, it is that slavery 
must end. What good--and Barbara said this as well--is our 
economic and political power if we cannot use it to free 
slaves? Instead, if we cannot choose to stop slavery, how can 
we say we are free?
    Thank you very much, Senators.
    [Additional material provided by Dr. Bales follows:]

           Disposable People: An Introduction to New Slavery

    Most of us think that slavery ended a long time ago, or that if it 
does exist then it only happens in poor countries far away. Maybe that 
is one reason why Hilda Dos Santos stayed in slavery for so long in the 
well-to-do suburbs outside Washington DC. Hilda had worked as a 
domestic servant in her native Brazil for many years, and when Rene and 
Margarida Bonnetti asked her to move with them to the United States in 
1979 she agreed. Once in the US, the Bonnetti's stopped paying Hilda 
and locked her into a life of slavery. She cleaned the house, did the 
yardwork, cooked the meals, cared for the pets, and even shoveled snow 
without gloves, boots, or a coat. Her bed was a mattress in the 
basement, and she was not allowed to use the showers or bathtubs in the 
house. Her food was scraps and leftovers, and when Hilda made mistakes 
in her work she would be beaten. Once Mrs. Bonnetti poured hot soup 
over her face and chest when she didn't like the way it tasted. When a 
cut on Hilda's leg became infected the Bonnetti's refused to provide 
medical care. A stomach tumor grew to the size of a soccer ball without 
any help from the Bonnetti's, and a neighbor finally took her to the 
hospital. It was there that social workers were alerted to her 
situation and the law stepped in. She had been in slavery for 20 years.
    Hilda Dos Santos is typical of many slaves in the world today--
poor, vulnerable people tricked into slavery. Her case demonstrates 
that slavery is alive and well. If her case was unique it would be 
shocking enough, but Hilda is one of thousands of slaves in the United 
Sates, and one of millions of slaves in the world. The slavery she 
suffered is much the same as the old kinds of slavery we learn about in 
history. Slavery is still about one person controlling another, taking 
their free will and abusing and stealing their lives and livelihood. 
But slavery today is also different, for slavery has evolved into new, 
and in some ways, more destructive forms that stretch through our 
global economy to touch us wherever we are.
    This brief guide introduces modern slavery around the world, slaves 
and slaveholders, and the people that are working to stop slavery. It 
will explain how slavery has changed since the Atlantic slave trade of 
the 19th century, and why racial differences are no longer very 
important in slavery. It looks closely at some instances of real 
slavery, and considers what these cases have in common. And it examines 
how slavery fits into our global economy and what international 
organizations are doing to fight it. But first we have to think about 
how we can understand and define this ancient yet dynamic and changing 
thing that called slavery.
                            SLAVERY DEFINED
    The word ``slavery'' is now used to describe many different things, 
so it has no exact and agreed definition. Since the abolition of legal 
slavery in the 19th century, the word ``slavery'' has been used for 
many different things: prostitution, prison labor, even the sale of 
human organs. More than 300 international slavery treaties have been 
signed since 1815, but none have defined slavery in exactly the same 
way. Many definitions of slavery focus on the legal ownership of one 
person by another, since most slavery in the l91l century took that 
form. But it is important to remember that slavery has been part of 
human history for thousands of years. Some of that time slavery was 
about the legal ownership of people, but at other times it was not.
Key characteristics of slavery
    Before we can define ``slavery'', we need to recognize the 
characteristics and conditions that make it what it is. Slavery is a 
relationship between two people. It is both a social and economic 
relationship, and like all relationships it has certain characteristics 
and rules. The key characteristics of slavery are not about ownership, 
but about how people are controlled. The core of slavery throughout 
history, whether it was legal or not, is violence. The slave master or 
slaveholder controls a slave by using or threatening violence. Slavery 
is about no choices at all, no control over your life, and a constant 
fear of violence. This is the key to slavery. Violence brings a person 
into slavery. Many people who become slaves are tricked into it. Many 
people, following a trail of lies, walk into enslavement, but what 
keeps them there is violence. Once enslaved, there are all sorts of 
ways that slaves are held in slavery, sometimes it is the way the slave 
gives up and gives into slavery, sometimes it is about the personal 
relationships which grow up between slaves and slaveholders--but the 
essential ingredient is violence.
    The second key characteristic of slavery is that the slave loses 
their free will, they are under the complete control of someone else. 
There is no other person, authority or government the slave can turn to 
for protection. The slave must do as they are told or they suffer. The 
third characteristic is that slavery is normally used to exploit 
someone in some kind of economic activity. No one enslaves another 
person just to be mean, people are enslaved to make a profit. Most 
slaveholders see themselves as normal businessmen. They have little 
interest in hurting anyone, in being cruel or torturing people, it is 
just part of the job. Slavery is about money. If we put these 
characteristics together we can define slavery in this way:

          Slavery: A social and economic relationship in which a person 
        is controlled through violence or its threat, paid nothing, and 
        economically exploited.

    In some ways this is a narrow definition. It excludes many things 
that people have called ``slavery'' (like the selling of human organs), 
but it includes all those relationships that most people agree are 
slavery, and it is broad enough to include many kinds of slavery around 
the world.
    A definition that works for many different types of slavery is 
important because slavery, like all human relationships, changes over 
time. The main characteristic of slavery is control through violence, 
but that can take many forms. The conditions in which slaves live 
around the world vary enormously. In those few places where old styles 
of slavery are still practised, like Mauritania, there are long-term, 
often life-long relationships between slave and master. In most 
countries the state of slaves is more short-term and dangerous.
                            HOW MANY SLAVES?
    No one knows how many slaves are in the world. Slavery is illegal 
in virtually every country and that means it is usually hidden from 
view. But if we trace carefully through all the information available 
about slaves around the world we can estimate that there are perhaps 27 
million slaves alive today. Where are all these slaves? The biggest 
part of that 27 million, perhaps 15 to 20 million, is in India, 
Pakistan, and Nepal. Otherwise slavery tends to be concentrated in 
Southeast Asia, Northern and Western Africa, and parts of South 
America, but there are some slaves in almost every country in the world 
including the United States, Japan, and many European countries. To put 
this number into some sort of perspective, today's slave population is 
greater than the population of Canada, and six times greater than the 
population of Israel.
    Slaves tend to be used in simple, non-technological, and 
traditional work. The largest proportion work in agriculture. But 
slaves are used in many other kinds of work: brick making, mining and 
quarrying, textiles, leather working, prostitution, gem working and 
jewellery making, cloth and carpet making, working as domestic 
servants, clearing forests, making charcoal, and working in shops. Much 
of this work is aimed at local sale and consumption, but slave-made 
goods filter throughout the global economy. Carpets, fireworks, 
jewellery, metal goods, steel (made with slave-produced charcoal), and 
foods like grains, rice and sugar are imported directly to North 
America and Europe after being produced using slave labor. In countries 
where slavery and industry co-exist, cheap slave-made goods and food 
keep factory wages low and help make everything from toys to computers 
less expensive.
                   THE NATURE OF CONTEMPORARY SLAVERY
    As a human relationship slavery has been changing over time. Of 
course, slavery remains the same in that one person has complete 
control of another person, but exactly how that happens changes from 
time to time and place to place. Slavery today is different from 
slavery in the past in three important ways. First, slaves today are 
cheaper than they have ever been. The cost of slaves has fallen to a 
historical low, and they can be acquired in some parts of the world for 
as little as $10. Second, the length of time that slaves are held has 
also fallen. In the past slavery was usually a life-long condition, 
today it is often temporary, lasting just a few years or even months. 
Third, slavery is globalized. This means that slavery in different 
parts of the world is becoming more alike. The way slaves are used and 
the part they play in the world economy is increasingly similar 
wherever they are. These changes have come about very quickly, 
occurring, for the most part, in the last fifty years. What has made 
these new forms of slavery possible?
                HOW SLAVERY CHANGED INTO ITS MODERN FORM
    There are three key factors in the emergence of this new kind of 
slavery. The first is the dramatic increase in world population since 
World War II, which has increased the supply of potential slaves. In a 
classic example of ``supply and demand'' the increase in population has 
also driven down their price. Since 1945 the world population has 
tripled from about 2 billion people to over 6 billion. The greatest 
part of that increase has been in those countries where slavery is most 
prevalent today. Across Southeast Asia, the Indian sub-continent, 
Africa, and the Arab countries, the population boom has more than 
tripled populations and flooded countries with children. Over half the 
population in some countries in the developing world is under the age 
of fifteen. In countries that were already poor, the sheer weight of 
numbers sometimes overwhelms the resources on offer. Especially in 
those parts of the world where slavery still existed or had been 
practiced in the past, the population explosion radically increased the 
number of people who could be enslaved, and drove down their price.
    The second key factor is rapid social and economic change. This has 
been caused in part by the population explosion, which created global 
conditions that make new forms of slavery possible. In many developing 
countries the post-colonial period since 1945 brought immense wealth to 
the elite, but continued or increased the poverty of the majority of 
the population. Throughout Africa and Asia, the last fifty years have 
been scarred by civil war and the wholesale looting of resources by 
dictators, who were often supported by the powerful nations of Europe 
and North America. Countries with little to sell on the world market 
have been put deeply into debt to pay for the weapons the dictators 
needed to hold on to power. Meanwhile traditional ways of agricultural 
life and farming were sacrificed to concentrate on cash crops needed to 
pay off those foreign debts. As the world economy grew and become more 
global, it had a profound impact on people in the third world and the 
small-scale farming which supported them. The shift from small-scale 
farming to cash-crop agriculture, the loss of common land shared by all 
the people in a village, and government policies that pushed down farm 
income in favor of cheap food for city workers, have all helped to 
bankrupt millions of peasants and drive them from their land. All 
across the third world the slums and shantytowns that surround big 
cities hold millions of these displaced people. They come to the cities 
in search of jobs, but find they are competing for jobs with thousands 
of other people. With little income and no job security they are 
powerless and very vulnerable.
    Some national and global policies and trends also threaten these 
vulnerable displaced people. While economic modernization may have good 
effects, particularly in improvements to health care and education, the 
political focus in many developing countries concentrates on economic 
growth rather than on sustainable livelihoods for the majority of 
people. So while the rich of the developing world grow richer, the poor 
have fewer and fewer options, and in the disruption that comes with 
rapid social change, slavery can become one of those options.
    The end of the cold war and the ending of state control of the 
economy in the former Soviet Union also served to widen the 
opportunities for slavery. William Greider explained it well:

          One of the striking qualities of the post-Cold War 
        globalisation is how easily business and government in the 
        capitalist democracies have abandoned the values they 
        putatively espoused for forty years during the struggle against 
        communism--individual liberties and political legitimacy based 
        on free elections. Concern for human rights, including freedom 
        of assembly for workers wishing to speak for themselves, has 
        been pushed aside by commercial opportunity. Multinationals 
        plunge confidently into new markets, from Vietnam to China, 
        where governments routinely control and abuse their own 
        citizens. ( Greider, 1997, 37 )

    Often multinational companies cooperate with these abusive 
governments by supporting the corruption that is the third key factor 
that supports this new form of slavery. Just having large numbers of 
vulnerable people doesn't automatically make them slaves. In order to 
turn vulnerable people into slaves on any scale, violence must be used. 
One of the basic ideas about any democratic government is that it 
should have a monopoly on the means of violence. The military and the 
police are generally the only ones who can use weapons and commit 
violence legally. Normally they do so to protect citizens from crime, 
including criminal or illegal violence. But if anyone in a society can 
use violence freely for their own ends, without fear of being arrested 
and locked up, then they can force others into slavery. To do that on 
any scale requires government corruption, especially police corruption, 
and when governments are corrupt this is exactly what happens. In some 
countries the police act as slave catchers, pursuing and punishing 
escaped slaves. In such countries police often require that people 
holding slaves pay them weekly for police ``protection''. For the 
slave-using businessman, payments to the police are just a normal part 
of business. The fundamental point is that when laws against kidnap are 
not enforced, those who have the means of violence (often the police 
themselves) can harvest slaves.
                      OLD AND NEW SLAVERY COMPARED
    The population boom, the vulnerability of poor people in the third 
world, and government corruption has led to new forms of slavery. For 
the first time in human history there is an absolute glut of potential 
slaves. It is a dramatic example of supply and demand. There are so 
many possible slaves that their value has fallen and fallen. Slaves are 
now so cheap that they have become cost-effective in many new kinds of 
work. Their value is so low that it has completely changed the way they 
are seen and used. Slaves are no longer major investments. This fact 
has changed the nature of the relationship between slaves and 
slaveholders. It has also dramatically changed the amount of profit to 
be made from a slave, as well as the length of time a person might be 
enslaved. And it has made the question of legal ownership less 
important. When slaves were expensive it was important to safeguard 
that investment by having clear and legally documented ownership. 
Slaves of the past were worth stealing and worth chasing down if they 
escaped. Today slaves are so cheap that it is not worth securing 
permanent ownership. The fact that ownership of slaves is now illegal 
is not really a problem for slaveholders because today slaves are 
disposable.
    Disposability means that the new forms of slavery are less 
permanent. Across the world the length of time a slave spends in 
bondage varies enormously. It is simply not profitable to keep slaves 
when they are not immediately useful. Although most are enslaved for 
periods of years, some are held for only a few months. In countries 
where sugar cane is grown, for example, people are often enslaved for a 
single harvest. Since they are used only for a short time there is no 
reason to invest heavily in their upkeep. There is also little reason 
to insure that they survive their enslavement. While slaves in the 
American South in the 19th century were often horribly treated, there 
was still a strong incentive to keep them alive as long as possible. 
Slaves were like valuable livestock; the owner needed to make back his 
investment. There was also pressure to breed them and produce more 
slaves, since it was usually cheaper to raise new slaves than to buy 
adults. Today no slaveholder wants to spend money supporting useless 
infants.

       Differences Between Old and New Forms of Slavery

    Old Forms of Slavery                New Forms of Slavery
  Legal ownership asserted             Legal ownership avoided
  High purchase cost                   Very low purchase cost
  Low profits                          Very high profits
  Shortage of potential slaves         Surplus of potential slaves
  Long-term relationship               Short-term relationship
  Slaves maintained                    Slaves disposable
  Ethnic differences important         Ethnic differences less important


    This is clarified when we look at a specific example. Perhaps the 
best-studied and understood form of old slavery was the system of 
slavery in the American South before 1860, particularly the use of 
slaves in cotton cultivation (see, for example, Ransom, 1989). Slaves 
were at a premium. The demand for slaves was reflected in their price. 
By 1850 an average field laborer was selling for $1,000 to $1,800. This 
was three to six times the average yearly wage of an American worker at 
the time, or in today's money it would equal around $50,000 to 
$100,000. Despite their high cost, slaves generated, on average, 
profits of only about 5 percent each year. If the cotton market went up 
a plantation owner could make a very good profit on his slaves, but if 
the price of cotton fell, he might be forced to sell slaves to stay in 
business. Ownership was clearly demonstrated by bills of sale and 
titles of ownership, and slaves could be used as collateral for loans 
or used to pay off debts. Slaves were often brutalized to keep them 
under control, but they were also maintained as befitted their sizeable 
investment. And there was, of course, extreme racial differentiation 
between slaveholder and slave. The racist element was so strong that a 
very small genetic difference, being one-eighth black and seven-eighths 
white, could still mean life-long enslavement.
    A point of comparison to the old slavery of the American South is 
the agricultural slave in debt bondage in modern India. In India today 
land rather than labor is at a premium. India's population has grown 
enormously, it currently has three times the population of the United 
States in one-third the space. The glut of potential workers means that 
free labor must regularly compete with slave, and the resulting 
pressure on agricultural wages pushes free laborers toward bondage. 
When free farmers run out of money, when a crop fails or a member of 
the family becomes ill and needs medicine, they have few choices. Faced 
with a crisis they borrow from a local land-owner enough money to meet 
the crisis, but having no other possessions they have to use their own 
lives as collateral. The debt against which a person is bonded, that 
is, the price of a laborer, might be 500 to 1000 rupees (about $30 to 
$60). The bond is completely open-ended; the slave must work for the 
slaveholder until the slaveholder decides the debt is repaid. The debt 
might be carried into a second and third generation, growing under 
fraudulent accounting by the slaveholder, who may also seize and sell 
the children of the bonded laborer against the debt. The functional 
reality is one of slavery, but five key differences exist between this 
and old slavery.
    The first difference is that no one tries to assert legal ownership 
of the bonded laborer. The slave is held under threat of violence, 
often physically locked up, but no one asserts that they are in fact 
``property''. The second difference is that the bonded laborer is made 
partially or wholly responsible for his or her own upkeep, which 
results in cost-savings for the slaveholder. A third difference is that 
if a bonded laborer is not able to work, perhaps due to illness or 
injury, or is not needed for work, they can be abandoned or disposed of 
by the slaveholder who takes no responsibility for their maintenance. 
The fourth difference has to do with race; the ethnic differentiation 
is not nearly so rigid as that of old slavery. As mentioned above, 
bonded laborers may well belong to a different caste than the 
slaveholder--but this is not always the case. The key distinction is 
about wealth and power, not caste.
    Finally, a major difference between Old and New Slavery is in the 
profit to be made on an enslaved laborer. Agricultural bonded laborers 
in India generate one of the lowest profits found across all 
contemporary slavery, but they can still produce over 50 percent profit 
per year for the slaveholder. This high profit is due, in part, to the 
low cost of the slave in terms of the loan advanced, but the profit is 
still smaller than most other forms of modern slavery since it reflects 
the low returns on old-fashioned small-scale agriculture.
    Agricultural debt bondage in India still has some characteristics 
of older forms of slavery, such as the fact that the slaves will be 
held for long periods. A better example of new forms of slavery is the 
young women put to work in prostitution in Thailand. A population 
explosion in Thailand means there is a surplus of potential slaves. 
Rapid economic change has led to new poverty and desperation. The young 
women and girls are often initially lured from rural areas with the 
promise of work in restaurants or factories. There is no ethnic 
difference: these are young Thai women enslaved by Thai brothel owners, 
and, if anything, it is a question of rural slaves and urban 
slaveholders. The girls might be sold by their parents to a broker, or 
be tricked by an agent. Away from their homes they are brutalized and 
enslaved and sold on to a brothel owner. The brothel owners place the 
girl in debt bondage and tell them they must pay back their purchase 
price plus interest through prostitution. The calculation of the debt 
and the interest is, of course, completely in the hands of the brothel 
owner and so is manipulated to show whatever they like. Using that 
trick, they can keep the girl as long as they want, and they don't need 
to show any legal ownership. The brothel does have to feed the girl and 
keep her presentable, but if she becomes ill or injured or too old she 
is disposed of. In Thailand today this often happens when the girl 
tests positive for HIV. This form of ``contract'' debt bondage is 
extremely profitable. A girl aged 12 to 15 can be purchased for $800 to 
$2,000, and the costs of running a brothel and feeding the girls are 
relatively low. The profit is often as high as 800 percent a year. This 
kind of return can be made on a girl for four to six years. After that, 
especially if she becomes ill or HIV positive, the girl will be dumped.
                          THE QUESTION OF RACE
    In the new forms of slavery race means little. Ethnic and racial 
differences were used in the past to explain and excuse slavery. These 
differences allowed slaveholders to make up reasons why slavery was 
acceptable, even a good thing for the slaves. The otherness of the 
slaves made it easier to use the violence and the cruelty necessary for 
total control. This otherness could be defined in almost any way--a 
different religion, or tribe, or skin color, or language, or customs, 
or economic class. Any of these could be used and were used to separate 
out the slaves from the slaveholders. Maintaining these differences 
required tremendous investment in some very irrational ideas, and the 
crazier the justifying idea, the more strongly it was insisted upon. 
The American ``Founding Fathers'' had to go through moral, linguistic 
and political contortions to explain why the ``land of the free'' only 
applied to white people. Many of them knew they were lying, that they 
were betraying their most cherished ideals. They were driven to it 
because slavery was worth a lot of money to a lot of people in early 
North America. They still went to the trouble of legal and political 
justification because back then they felt they had to make moral 
excuses for their economic decisions.
    Today the morality of money overrides most others. Most 
slaveholders feel no need to explain or defend their choice to use 
slavery. Slavery is a very profitable business and a good profit is 
reason enough. Freed of ideas that restrict the status of slave to 
others, ideas that say you can't enslave your own people, modern 
slaveholders use other criteria to choose slaves. When you can enslave 
people from your own country it helps to keep your costs down. Slaves 
in the American South were very expensive, in part due to the fact 
that, originally, they had to be shipped thousands of miles from 
Africa. When you can go to the next town or region for slaves, 
transport costs fall to a minimum. The question isn't ``are they the 
right colour to be slaves?'' but ``are they vulnerable enough to be 
enslaved?''. The criteria of enslavement is not about color, tribe, or 
religion, it is about weakness, gullibility, and vulnerability.
    It is true that in some countries there are ethnic or religious 
differences between slaves and slaveholders. In Pakistan, for example, 
many enslaved brick makers are Christians and the slaveholders are 
Muslim. In India slave and slaveholder may be of different castes. In 
Thailand they might come from different regions of the country. But in 
Pakistan there are Christians who are not slaves, in India members of 
the same caste who are free. Their caste or religion simply reflects 
their vulnerability to enslavement, it doesn't cause it. Only in one 
country, Mauritania, does the racism of old slavery persist. In 
Mauritania, black slaves are held by Arab slaveholders and race is a 
key division, but this is the last and fading survival of old slavery. 
Of course, some cultures are more divisive than others. Cultural ideas 
in Japan very strongly separate Japanese people from everyone else, and 
so enslaved prostitutes in Japan are more likely to be Thai or 
Philippine women, but they may also be Japanese. The key difference is 
that Japanese women are not nearly so vulnerable and desperate as 
Thai's or Filipinas. And the Thai women are available for shipment to 
Japan because Thai's are enslaving Thai's. The same pattern occurs in 
the oil-rich states of Saudi Arabia and Kuwait where Muslim Arabs might 
enslave Sri Lankan Hindus, Filipino Christians, or Nigerian Muslims. 
The common denominator is poverty not color. Behind every assertion of 
ethnic difference is the reality of economic disparity. If every left-
handed person in the world were made destitute tomorrow, there would 
soon be slaveholders arguing that slavery was perhaps the best thing 
for them. Modern slaveholders are color blind, but they are predators 
acutely perceptive to weakness. While slavery has been around for 
thousands of years, these predators are rapidly adapting it to the new 
global economy.
                   THE FORMS OF CONTEMPORARY SLAVERY
    Slavery has never existed in a single form. In some ways every 
relationship of slavery that links two people may be unique, but there 
are patterns in these relationships. There are several forms of slavery 
common enough to have their own names. The three main types given here 
are not an exhaustive list, but they do represent the prevalent forms 
of slavery today, under which most modern slaves are held:

          1. Chattel Slavery--is the form closest to old slavery. A 
        person is captured, born, or sold into permanent servitude, and 
        ownership is often asserted. The slave's children are normally 
        treated as property as well and can be sold by the slaveholder. 
        Occasionally, these slaves are kept as items of conspicuous 
        consumption. This form is most often found in Northern and 
        Western Africa and some Arab countries, but represents a small 
        proportion of slaves in the modern world.

          2. Debt Bondage--is the most common form of slavery in the 
        world. A person pledges him/herself against a loan of money, 
        but the length and nature of the service is not defined, nor 
        does their labor diminish the original debt. The debt can be 
        passed down to subsequent generations, thus enslaving 
        offspring, or ``defaulting'' can be punished by seizing or 
        selling children into further debt-bonds. Ownership is not 
        normally asserted, but there is complete physical control of 
        the bonded laborer. Debt bondage is most common in South Asia.
          There are in fact two distinct forms of debt bondage. In many 
        cases of debt bondage the slave's work (and indeed their very 
        life) becomes collateral for the debt. This means that all of 
        their work belongs to the moneylender until the debt is repaid. 
        This establishes the trap of bondage--since all their work is 
        the property of the lender until the debt is repaid, the debtor 
        is unable to ever earn enough to repay the debt by their own 
        labor. This arrangement is a common form of the debt bondage in 
        India. In other places the work of the debtor may, supposedly, 
        be used to pay off the debt, but through false accounting or 
        charging very high interest, repayment remains forever out of 
        reach. In the first form the agreement that changes the debtor 
        and all his or her work into collateral pretty well means the 
        debtor will never be able to repay their debt. In the second 
        form it is a violation of the loan agreement, when the value of 
        the work is not really used to pay off the loan, that traps the 
        debtor.

          3. Contract Slavery--this form of slavery shows how modern 
        labor relations are used to hide new forms of slavery. 
        Contracts are offered which guarantee employment, perhaps in a 
        workshop or factory, but when the worker is taken to their 
        place of work they find they are enslaved. The contract is used 
        as an enticement to trick the person into slavery, as well as a 
        way of making the slavery look legitimate if necessary. 
        Ownership is not asserted, and if legal questions are raised 
        the contract is produced, but the slave is under threat of 
        violence, has no freedom of movement and is paid nothing. This 
        is the most rapidly growing form of slavery, and probably the 
        second largest form today. Contract slavery is most often found 
        in Southeast Asia, Brazil, some Arab states, and some parts of 
        the Indian sub-continent.

    These types are not mutually exclusive. Contracts may be issued to 
chattel slaves in order to conceal their enslavement. Girls trapped 
into prostitution by debt bondage will sometimes have contracts that 
specify their obligations, but not always. The important thing to 
remember is that people are enslaved by violence and held against their 
wills for exploitation. The labels we apply to the types of slavery are 
useful to help us keep track of the patterns of enslavement, and for 
what they might suggest about how slavery might be attacked. The labels 
reflect the nature of the relationship between the slave and the 
slaveholder, but these relationships are fluid and changeable.
    In addition to these three main types of slavery there are several 
other kinds which account for a small part of the total number of 
slaves. Most of these tend to be restricted to specific geographical 
regions or political situations. A good example of slavery linked to 
politics is what is often called War Slavery and includes government 
sponsored slavery. In Burma today there is widespread capture and 
enslavement of civilians by the government and the army. Tens of 
thousands of men, women, and children are used as laborers or bearers 
in military campaigns against indigenous peoples or on government 
construction projects. The Burmese military dictatorship doesn't 
suggest that they own the people they have enslaved, in fact they deny 
that they enslave anyone, but the International Labor Organization, US 
State Department, and human rights organizations confirm that violence 
is used to hold a large number of people in bondage. War slavery is 
also a feature of the ongoing civil war in Sudan.
    In some parts of the Caribbean and in Western Africa, children are 
given or sold into domestic service. They are sometimes called 
Restavecs. Ownership is not asserted, but strict control, enforced by 
violence, is maintained over the child. The return on the enslaved 
child is not interms of profits generated, but in the domestic services 
provided. It is a culturally approved way of dealing with ``extra'' 
children, and some are treated well, but for most it is a kind of 
slavery that lasts until adulthood.
    Slavery can also be linked to religion, as with the Devadasi women 
in India, or the children who are ritual slaves in Ghana. Several 
thousand girls and young women are given by their faniilies as slaves 
to local fetish priests in southeastern Ghana, Togo, Benin, and 
southwestern Nigeria. The girls are given to the priests in order to 
atone for sins committed by members of their families, often rape. The 
girls may, in fact, be the products of rape and their slavery is seen 
as a way of appeasing the gods for the crimes committed by their male 
relatives. The girls are given to the local priest as a slave when they 
are about ten years old, and it is required that they must be virgins. 
The girls then stay with the priest cooking and cleaning, farming, and 
serving the priest sexually until the priest frees her, usually after 
she has borne several children. At that point the slave's family must 
provide another young girl to replace her. Ghana's Constitution forbids 
slavery, but the practice is justified by villagers and priests as a 
religious requirement.
    As can be seen by the cases above slavery comes in many forms and 
it can be found in virtually all countries. A recent investigation in 
Britain found young girls held in slavery and forced to be prostitutes 
in Birmingham and Manchester. Enslaved domestic workers have been found 
and freed in London and Paris. In the United States textile workers 
have been found locked into a factory and working under armed guards. 
Enslaved Thai and Philippine women have been freed from brothels in New 
York, Seattle, and Los Angeles. This list could go on and on. Almost 
all of the countries where slavery ``cannot'' exist have slaves inside 
their borders, but, it must be said, in very small numbers compared to 
the Indian sub-continent or the Far East. Altogether slaves constitute 
a vast workforce that supports the world economy we all share.
                    EXAMPLES OF CONTEMPORARY SLAVERY
Lives up in smoke
    In a recent survey, over a third of all American high school 
students said that they used tobacco at least once in the last month. 
That smart students should be doing something so stupid is alarming, 
but what is even worse is that many of them were supporting slavery as 
they smoked. Almost 300,000 students said that they had been smoking 
beedis, small flavored cigarettes from India. Would they have done so 
if they knew that most beedis are made by slave children?
    In the southern Indian state of Tamil Nadu, outside the big city of 
Madras, are small towns where millions of beedis are made. On the 
outskirts of one of these towns lives an eleven-year-old boy named 
Vikram. He, and many of the other children in his town are slaves. When 
Vikram was nine his younger brother became very ill. His family is very 
poor, and the only way that his parents could buy medicine was to 
borrow money from a local man. As the man controling the production of 
beedis in their village, this moneylender used the loan as a way to 
take Vikram into debt bondage. Since Vikram's parents had nothing else 
to give as collateral, the moneylender said they must pledge Vikram 
against the debt. His parent's choice was a terrible one: to save the 
life of their youngest son, they had to put their oldest son into 
bondage. For the moneylender it was business as usual, and he had got 
another slave for just a few dollars. Today none of the work that 
Vikram does pays off the debt, he is basically the property of the 
moneylender until his parents can find the money for repayment. Two 
years after it was first made the debt has grown with extra charges to 
about $65.
    Vikram works from six in the morning until nine at night, with 
breaks for breakfast and lunch. Each day he rolls about 1,500 beedi 
cigarettes by hand. Each beedi is smaller than a normal cigarette, and 
instead of paper the tobacco is wrapped in a leaf from the kendu tree. 
Since there is no glue used, each beedi must then be tied shut with a 
thread and a tiny knot. Sitting cross-legged on the floor with a tray 
of tobacco and kendu leaves on his lap, Vikram's hands fly through the 
motions of wrapping, rolling and tying the beedis. He has to work very 
quickly, like a machine, if he is to make the number required from him 
everyday. If he is sick, he still has to work, and if he fails to 
deliver to full number, his debt will be increased. He can watch the 
world, or a very small piece of it, from the porch where he sits 
rolling the beedis, but he cannot be part of it. Some of the local 
children go off to school in the mornings, he sees them go as he rolls 
beedi. In the afternoon other children play around the village, Vikram 
watches but cannot join in, his childhood has been taken by the 
moneylender to provide virtually free labor and high profits.
    In some ways Vikram's slavery could be worse. At night he is 
allowed to go home for supper and to sleep with his family. Of course, 
this is very clever of the moneylender, since it means that he doesn't 
have to provide food or lodging for his slave. Vikram, like so many 
modern slaves, was very cheap to buy and is also very cheap to 
maintain. Until recently a boy in Vikram's position would have little 
to look forward to except years rolling beedis. Many children have had 
their whole childhood taken by beedi rolling. As young adults the 
moneylender will often turn them to other kinds of work, since their 
larger hands are not as nimble for rolling beedis. When they finally 
stop rolling beedis, they are young men with no education and little 
experience of the world. Their job prospects, if they can get away from 
the moneylender, are dismal.
Slavery in the City of Lights
    In France I interviewed an animated 22 year old woman, who told me 
of her life as a slave in Paris:

          I was raised by my grandmother in Mali, and when I was still 
        a little girl a woman my family knew came and asked her if she 
        could take me to Paris to care for her children. She told my 
        grandmother that she would put me in school and that I would 
        learn French. But when I came to Paris I was not sent to 
        school, I had to work every day. In their house I did all the 
        work, I cleaned the house, cooked the meals, cared for the 
        children, and washed and fed the baby. Every day I started work 
        before 7 am and finished about 11 pm, I never had a day off. My 
        mistress did nothing, she slept late and then watched 
        television or went out.
          One day I told her that I wanted to go to school. She replied 
        that she had not brought me to France to go to school but to 
        take care of her children. I was so tired and run down. I had 
        problems with my teeth, sometimes my cheek would swell and the 
        pain would be terrible. Sometimes I had stomach aches, but when 
        I was ill I still had to work. Sometimes when I was in pain I 
        would cry, but my mistress would shout at me.
          I slept on the floor in one of the children's bedroom, my 
        food was their leftovers. I was not allowed to take food from 
        the refrigerator like the children. If I took food she would 
        beat me. She often beat me. She would slap me all the time. She 
        beat me with the broom, with kitchen tools, or whipped me with 
        electric cable. Sometimes I would bleed, I still have marks on 
        my body.
          Once in 1992 I was late going to get the children from 
        school, my mistress and her husband were furious with me and 
        beat and then threw me out on the street. I had nowhere to go, 
        I didn't understand anything, and I wandered on the streets. 
        After some time her husband found me and took me back to their 
        house. Then they beat me again with a wire attached to a 
        broomstick until I lost consciousness.
          Sometime later one of the children came and untied me. I lay 
        on the floor where they had left me for several days. The pain 
        was terrible but no one treated my wounds. When I was able to 
        stand I had to start work again, but after this I was always 
        locked in the apartment. They continued to beat me.

    Seba was finally freed when a neighbour, after hearing the sounds 
of abuse and beating, managed to talk to her. Seeing her scars and 
wounds, the neighbour called the police and the French Committee 
against Modern Slavery (CCEM), who brought a case and took Seba into 
care. Medical examinations confirmed that she had been tortured. Today 
Seba is well-cared for, living with a volunteer family. She is 
receiving counselling and learning to read and write. Recovery will 
take years, but she is a remarkably strong young woman. What amazed me 
was how far Seba needs to go. As we talked I realised that though she 
was 22 and intelligent, her understanding of the world was less 
developed than the average 5 year old. For example, until she was freed 
she had little understanding of time--no knowledge of weeks, months, or 
years. For Seba there was only the endless round of work and sleep. She 
knew that there were hot days and cold days, but never learned that the 
seasons follow a pattern. If she ever knew her birthday she had 
forgotten it, and did not know her age. She is baffled by the idea of 
``choice''. Her volunteer family tries to help her make choices, but 
she still can't grasp the concept.
    If Seba's case were unique it would be shocking enough, but Seba is 
one of perhaps 3000 household slaves in Paris. Nor is this slavery 
unique to Paris. In London, New York, Zurich, Los Angeles, and across 
the world children are brutalized as household slaves. And they are 
just one small group of the world's slaves. The fact that we find 
slaves from many countries in Paris, Tokyo or Los Angeles points to the 
way slavery has become truly global. Of course, many things are 
becoming ``globalized'', but they are usually things we can see or 
experience as part of our daily lives, like the world wide web. In the 
shadows of the illegal markets crime is also becoming glob alized, and 
with it comes global slavery.
                       SLAVERY AND GLOBALIZATION
    Globalization is hard to define because it is still occurring and 
changing. But most people agree that globalization is the dramatic 
shift that is going on around the world that is doing four key things: 
it is reducing the amount of time required to communicate with anyone, 
as well as making physical distance between people much less important. 
It is leading to the emergence of global tastes and global ideas, from 
what is stylish in shoes and food to ideas about human rights and 
culture. And, it is reducing the importance of nations and increasing 
the importance of businesses or groups that are trans-national.
    These four things apply to slavery as well. In the 19th century 
slavery was, by definition, a social and economic relationship 
controlled by national governments. Slavery was given precise legal 
status within the boundaries of a country (or sometimes a state within 
a country) and removing a slave from that country meant automatic 
freedom. Unfortunately for contemporary slaves, most people still 
define slavery as legal ownership and that means that many people think 
that slavery was abolished when countries stopped allowing legal 
ownership of other people. Of course, slavery did not end when slavery 
laws were changed. Equally important, the globalization of 
transnational organizations applies to criminal groups as well, and 
their trade in human beings is increasing worldwide.
    Globalization is seen in the ongoing loss of government control 
over international trade. When young people mounted big protests at the 
World Trade Organization meetings in Seattle in 1999, they were drawing 
attention to the fact that no one seems to be in control on 
international trade, which means that no one is protecting people from 
the worst outcomes of that trade. The trade in human beings is also 
difficult for governments to control. The trade in people is sometimes 
called ``trafficking'' or ``human trafficking''. The United Nations 
estimates that $7 billion is made year by trafficking in people. These 
profits flow across national borders enriching criminal networks. 
Governments are used to enforcing law within their borders, but when 
people and profits are moved rapidly from country to country it is 
difficult for law enforcement to keep up.
    The spread of production and products around the world is another 
mark of globalization. Today we are not surprized to see that our shoes 
are made in Italy, our shirts in India, our cars in Mexico, or that our 
fruit comes from Africa and our fish from Norway. Global businesses can 
pull together all of these products from around the world. Global 
slavery does the same. Slaves are recruited in one country to be sent 
to another, or shipped thousands of miles within the same country. It 
is true that in the 19th century slaves were moved long distances in a 
one-way traffic from Africa to the Americas, but the trade today sees 
slaves moved in many directions all around the world.
    Before globalization, people were more concerned with ``fixed'' 
capital investments, like factories or life-long slaves, and with long-
term planning. The globalized world is more concerned with flexibility 
than fixed capital, and with processes of production rather than 
permanence. The same is true of slavery. Slaves are so cheap now that 
they are not seen as long-term investments, just flexible resources to 
be used or thrown away as needed. And this more temporary, low cost 
slavery is also becoming more common around the globe. Whether slaves 
are cutting sugar cane in the Caribbean, or making bricks in Pakistan, 
or mining in Brazil, the nature of slavery is merging into a more 
global form. And because trans-national companies now tie together the 
world's economy, we may be using or profiting from the work of these 
slaves.
                 WHO IS RESPONSIBLE FOR GLOBAL SLAVERY?
    If responsibility for slaveholding is extended to those who profit 
from it, we have to confront a shocking ethical problem. Those who 
profit from slavery might include you or me or anyone. Pension funds or 
mutual funds may be buying stock (which is, after all, part-ownership) 
in companies that own companies that sub-contract slave labor. Some key 
questions are: How many links have to stand between a slave and an 
``owner'' for them to be held responsible? Is ignorance an excuse? If 
your job were to depend on the availability of slave-produced raw 
materials, where would you stand? There are, in fact, several layers of 
responsibility. But how much responsibility does the average person 
carry for the eradication of slavery. William Greider points out that:

          The deepest meaning of the global industrial revolution is 
        that people no longer have free choice in the matter of 
        identity. Ready or not, they are already of the world. As 
        producers or consumers, as workers or merchants or investors, 
        they are now bound to distant others through the complex 
        strands of commerce and finance reorganising the globe as a 
        unified marketplace. The prosperity of South Carolina or 
        Scotland is deeply linked to Stuttgart's or Kuala Lumpur's. The 
        true social values of Calfornians or Swedes will be determined 
        by what is tolerated in the factories of Thailand or Bangladesh 
        (Grieder, 1997, 333).

    If people do not participate in slavery through investment, they 
almost certainly have through consumption. Slave produced goods and 
services flow into the global market making up a tiny but significant 
part of what we buy. But the sheer volume of our consumption overwhelms 
our ability to make responsible choices. We don't have time to research 
the living conditions of the people who produced everything we buy. And 
if we could ask these questions, how would we go about it? Is it the 
responsibility of the local supermarket to investigate labor relations 
around the world, or to get you the best food at the lowest price? Then 
we also have to think about what happens when we get answers we don't 
like. For example, Haitian men, women, and children have been enslaved 
to harvest sugar in the Dominican Republic, sugar exported to the 
United States and other countries. Is the average consumer ready to pay 
$5 for a candy bar if that is what it takes to ensure that the 
producers are not enslaved and get a decent wage? When enough research 
discovers where and how slave made goods enter our lives, there will be 
an even bigger question to face: how much is the average person willing 
to pay to end slavery? Meanwhile most people assume that the problem 
should be dealt with by governments and the United Nations, yet the UN 
turns out to be less powerful than consumers in their ability to 
confront slavery.
    THE ROLE OF THE STATE AND THE UN: INTERNATIONAL LAW AND SLAVERY
    When the League of Nations was set up after World War I, one of its 
first major statements was a convention against slavery (a convention 
is an agreement made between countries which is less formal than a 
treaty). Commonly known as the 1926 Slavery Convention it called on 
every country that signed it (and most countries have done so) to 
``prevent and suppress the slave trade; and to bring about . . . the 
complete abolition of slavery in all its forms''. When the Universal 
Declaration of Human Rights was published by the new United Nations in 
1948, freedom from slavery was seen as one of the most fundamental of 
human rights. Article 4 reads, ``No one shall be held in slavery or 
servitude; slavery and the slave trade shall be prohibited in all their 
forms''. In 1956 a Supplementary Convention was added that included 
debt bondage, serfdom, and unfree forms of marriage in the UN's 
definition of slavery.
    It is important to remember that only one part of the United 
Nations, the Security Council, has the power to punish countries or 
mobilize armed forces. It is the Security Council that decided, for 
example, to intervene in Kuwait, East Timor, and Kosovo. And even the 
Security Council has to rely on voluntary support from member 
countries. Most of the other UN organizations are primarily ``talking 
shops''. They investigate, review, discuss, put forward resolutions and 
conventions, but cannot require any country to act in a certain way. 
Slavery is an important concern within the United Nations, but it must 
compete with many other concerns. The UN is a large bureaucracy, 
slavery comes under the Economic and Social Council that was set up 
when the UN began. Within the Council is the Commission on Human 
Rights, and within that commission is the Sub-Commission on Prevention 
of Discrimination and Protection of Minorities. The Commission and 
SubCommission meets every year to consider human rights issues. Before 
these meetings a number of working groups get together to focus on 
particular issues, one of these is the Working Group on Contemporary 
Forms of Slavery. It calls for reports from groups like Anti-Slavery on 
slavery around the world, and it passes resolutions calling on 
countries to enforce their own laws and the treaties they have signed. 
But like other parts of the UN, the Working Group cannot require or 
force countries to take action against slavery. Sometimes the Human 
Rights Commission also appoints people to be Special Reporters or 
investigators on particular issues, like torture or the rights of 
women. So far, there has never been a Special Reporter on Slavery, but 
many people believe that this would be an important step to highlight 
the extent of slavery today.
    Other parts of the UN are also very concerned with slavery, 
especially the International Labor Organization (ILO). The ILO, for 
example, runs the International Programme on the Elimination of Child 
Labor (IPEC) that is responsible for raising awareness and combating 
child labor. IPEC focuses on preventing child labor and the systematic 
search for alternative solutions in the form of decent employment for 
parents of child workers and rehabilitation, education, or vocational 
training for children. Child labor has emerged as one of the most 
important global issues of our times and international cooperation on 
the issue has been strengthened over the last few years. Children who 
are enslaved, perhaps through debt bondage, are a special concern in 
the fight against child labor. One non-governmental organization, the 
Global March Against Child Labor, with key support from IPEC, has 
developed a worldwide network of political leaders and activists in 
many countries, raising awareness and understanding of the issue. When 
child laborers from around the world marched on the United Nations in 
Geneva in 1998, their voices and example pushed the politicians to 
enact much stronger rules in the new Convention on the Worst Forms of 
Child Labor, which includes child slavery. Around the world IPEC also 
sets up projects to get children out of the workplace and back into 
schools. In 1998-1999 an estimated 130,000 children benefited directly 
from ``child labor-related services'' provided by IPEC and its 
partners. The ILO also does in-depth investigations of slavery. By 
calling in independent experts and maintaining a staff of highly 
trained specialists, it brings together some of the most reliable 
information available on slavery today.
    Another UN body that confronts slavery is the International 
Organization for Migration (IOM). For years, trafficking rings have 
thrived on the exploitation of women from developing countries. 
Recently countries of the former Soviet Union have become their latest 
targets. In Ukraine, for example, women have become more economically 
vulnerable and trafficking in women has become a dangerously booming 
``business''. Lured by false promises, misled by false information on 
migration regulations, many women fall prey to unscrupulous 
traffickers, allowing their dream for a better life to be exploited. 
Helping stem the rising tide of trafficking in women, the IOM set up an 
information campaign that educated and warned women about the truth of 
trafficking. The result was a significant reduction in the number of 
women tricked into slavery in this way.
                         TRAFFICKING IN PEOPLE
    The size of the modern slave trade is very hard to measure. It is 
mixed up with the smuggling of illegal immigrants, with forced 
migration, and with criminal networks. The United Nations estimates 
that around the world 4 million people a year are traded against their 
will into some form of slavery or servitude. Most of these people come 
from Southeast Asia, Eastern Europe, and Latin America. In these parts 
of the world people and families that are poor and desperate will do 
almost anything to improve their lot. ``Recruiters'' take advantage of 
them, promising transportation and jobs in a new country. Once the 
``recruiters'' have people away from their homes, they use violence to 
take control of their lives. The CIA estimates that as many as 50,000 
women and children are smuggled into the United States each year to be 
forced into prostitution, domestic service, or as bonded labor in 
factories and sweatshops. Men are also brought into the country, but in 
smaller numbers.
    Recent cases show the nature of the trade:

          In 1995, 76 immigrants from Thailand were liberated from a 
        cockroach-infested garment factory in El Monte, California. 
        Razor wire fences surrounded the factory where they were forced 
        to sleep and work up to 16 hour days. They were being held 
        against debts supposedly amassed for their passage to the US.

          In 1997, three men were convicted of kidnapping a 22-year-old 
        woman in China. They had brought her to the US, raped her, and 
        forced her to work as a prostitute. She was beaten, burned with 
        cigarettes, and tattooed with a gang symbol before she escaped.

          In 1999, police in Atlanta broke up a smuggling ring that 
        brought up to 1,000 Asian women to the US and forced them to 
        work as prostitutes. The smugglers would fly the women to 
        different cities in the US to ensure variety in the brothels. 
        While the women were given just enough to cover the basic 
        necessities, one brothel grossed $1.5 million over a two year 
        period.

    Most slavery in the United States begins as a case of illegally 
smuggling people into the country. Federal prosecutors have prosecuted 
150 cases of slavery or debt bondage in the last five years, but this 
amount is just the tip of the iceberg. Most victims are not able to 
communicate with officials if they escape, and most are also afraid to 
come forward. Told by the ``recruiters'' that they will be tortured or 
killed by the police if they are caught as illegal aliens, they keep 
quiet even in slavery.
    For the traffickers the crime is very attractive. Crime networks 
from Asia and Eastern Europe have found that dealing in people makes as 
much money as dealing in drugs and with much lower risk. Immigrants 
from Asia pay as much as $50,000 to smugglers to get them into the US, 
once in the country they can be locked up and forced to work 12 to 16 
hour days. Between the threat of violence and the psychological 
coercion based on fear of the police, the victims can be held and 
controlled for years. If traffickers are caught the penalties are much 
lower than for smuggling drugs. If apprehended the smuggler often 
pretends to be an illegal immigrant as well, so that they will be 
deported but not punished.
    Trafficking in people has boomed since the end of the Cold War as 
borders have become more open and more people have become economically 
vulnerable. The increase has governments scrambling to catch up. In 
early 2000 the US Congress began consideration of a law that would 
increase punishments for people who smuggle or keep bonded workers. The 
United Nations has drafted a new Convention on trafficking in persons, 
but it is still in the discussion stage. The European Union has also 
started work on new laws, but all of these governments are waiting for 
more research to be carried out to provide a picture of the extent and 
flow of this trade in human beings. So while the government bodies 
slowly determine what their response will be, it is the more flexible 
non-governmental organizations and charities that lead the work against 
trafficking and slavery. These groups achieve most of what is being 
accomplished against slavery, but with only small numbers of workers 
and just a fraction of the funds of the government agencies.
                     LIBERATION AND REHABILITATION
    The human and economic relationships of modern slavery are complex. 
It would be so much easier to understand and combat slavery if there 
were very clear good guys and bad guys, if all slaveholders were cruel 
and all slaves yearned for freedom, if the solution to all slavery were 
simply to set slaves free. But being free means more than just walking 
away from bondage. Liberation is a bitter victory if it only leads to 
starvation or reenslavement. Freedom is both a mental realization and a 
physical condition. Ultimately, slaves have to find their own way into 
true freedom. The physical and psychological dependence they often feel 
toward their masters can make this a long process. If an abused child 
is expected to need years of therapy and guidance to overcome trauma, 
equally abused slaves can hardly be expected to enter society 
immediately as full citizens. It is true that many ex-slaves are 
phenomenally resilient, but the worst abused may need a lifetime of 
care. In the struggle to survive, not just slavery but liberation, 
there is one striking parallel between the old slavery of the United 
States and the new slavery of today: when slavery came to an end in 
1865 the slaves were just dumped on the labor market. Today slaves who 
gain their liberty also face an uncertain future without resources or 
help. If slavery is to end, we must learn how ex-slaves can best secure 
their own freedom and become citizens in their own right.
    Liberation brings new problems. A lifetime of dependence cannot be 
swept away in an instant. A person denied autonomy, who has never had 
to make choices, can be paralyzed when confronting decisions. If 
anything can be learned from the lives of freed slaves, it is that 
liberation is a process not an event. If we are serious about stopping 
slavery we have to be committed to supporting freed slaves in a 
rehabilitation process that can take years. This means thinking very 
carefully about what slaves need to achieve true freedom. For example, 
we have to consider how to help slaves as people. What kind of care do 
slaves and ex-slaves need to attain a sense of freedom and personhood? 
Unfortunately, we know very little about the psychology of slavery or 
how to help its victims. To end slavery we will have to become experts 
in repairing the damage slavery brings to both mind and body.
    We will also have to become experts in slaves as economic beings. 
Slaves have few skills. The jobs they do as slaves are not usually 
worth much on the free market. But if they are freed and can't support 
themselves, how will they avoid being enslaved again? Small children 
are dependent on their parents, who often expect them to do simple 
tasks around the house. Slaves are kept in a state of permanent 
dependence and are normally prevented from learning all but the most 
simple tasks. No one would dream of dropping an eight-year-old into the 
job market to compete for their livelihood, but this has happened to 
thousands of freed slaves. Around the world, only a tiny handful of 
people work to understand and build new economic routes from slavery to 
self-sufficiency. The economic process of becoming self-supporting 
parallels the growth to psychological and social independence.
    From psychology to small scale economics to large scale law 
enforcement, much more research and development is needed. From the 
little work that has been done, it seems that there are several ways to 
help people to stay free: helping them to make the psychological 
adjustment to freedom; giving them access to credit; letting ex-slaves 
make their own decisions about what work they will do; overcoming 
corruption in the rehabilitation programmes; the presence and oversight 
of powerful people on the side of ex-slaves; and that greatest of 
liberators, education.
                            WHAT CAN WE DO?
    Around the world people are fighting against slavery. Many of these 
people have to invent the strategies and actions that they will take 
because the modern abolitionist movement is just beginning. We have 
wonderful examples such as Free the Children where a group of twelve-
year-olds have built up a powerful international organization. Even 
more inspiring are the lives of children liberated from slavery, 
children who have suffered terrible abuse, but who are not just re-
building their lives, but becoming leaders in the fight against 
slavery.
    One of the things we know about slavery today is that it spans the 
globe and reaches into our lives. Whether we like it or not, we are now 
global people. We have to ask ourselves: Are we willing to live in a 
world with slaves? If not, we have to work to understand the links that 
tie us to slavery and then take action to break those links. If we 
don't do that we are puppets, subject to forces we can't or won't 
control. If we don't take action we are just giving up and letting 
other people jerk the strings that tie us to slavery. Of course, there 
are many kinds of exploitation in the world, many kinds of injustice 
and violence to be concerned about. But slavery is important because it 
is exploitation, violence, and injustice all rolled together. There is 
no more potent combination of these three crimes. If there is one 
fundamental violation of our humanity we can not allow, it is slavery. 
If there is one basic truth that virtually every human being can agree 
on, it is that slavery must end. What good is all our economic and 
political power, if we can't use it to free slaves? If we can't stop 
slavery, how can we really say we are free?

    Portions of this Introduction are excerpted from: Disposable 
People: New Slavery in the Global Economy, by Kevin Bales (U. of 
California Press 1999).

    Senator Brownback. Thank you. That was an excellent, 
thoughtful statement with good and specific recommendations. 
Moctar, we look forward to hearing your testimony of your 
experience in Mauritania.
    Mr. Teyeb. Good morning, peace be upon you.
    Mr. Chairman, esteemed committee members. I greet you by 
saying As Alaamu Alaikum.
    Senator Brownback. Moctar, will you pull that microphone up 
closer to you. You have to get right in it, so people can hear 
you.

 STATEMENT OF MOCTAR TEYEB, AMERICAN COORDINATOR, EL HOR; AND 
         OUTREACH DIRECTOR, AMERICAN ANTI-SLAVERY GROUP

    Mr. Teyeb. And I want to thank you for this historic moment 
for my people, the Haratines in Mauritania. I say historic 
because it is the first time that the slaves in my homeland 
have had the chance for their story to be heard in a place like 
this--in a great democratic institution, the United States 
Senate. As one who was born into bondage, I know that it is a 
great privilege and honor to speak before you on behalf of more 
than one million Haratines, the slaves in Mauritania, and on 
behalf of all the abolitionists in Mauritania.
    I was born into slavery in 1959, just as my country was 
gaining its independence from France. I, however, was born into 
a world that knew nothing of independence. My family and I were 
slaves, and had been so for generations. Our reality was 
servitude, obedience, and bondage. Independence and freedom, 
who knew about such things? You see, in Mauritania, slavery has 
never ended.
    Eight hundred years ago, Arab-Berber tribesmen rode south 
across the Western Sahara Desert and enslaved the black 
Africans they met in what is today Mauritania. And ever since 
that time the Haratines--black Africans like myself--who lost 
their culture, who lost even their family names, have lived 
under white Arab masters, who are known as Beydannes. We have 
been bought and sold like property, and bred like farm animals.
    We are all Muslim. The Beydannes are Muslim and the 
Haratines are Muslim. We worship the same God--Allah. and we 
follow the same Islamic rituals. In the Koran, it is written 
that a Muslim may not enslave a fellow Muslim, but in 
Mauritania this does not apply to black Muslims. We have been 
the inherited property of the Beydannes for generations.
    On my father's side, my family has been slaves for at least 
three generations. On my mother's side, it is impossible to 
remember a time when we were ever free.
    I was born in the southern desert of Mauritania near a 
small village called Ejert. As a young slave, I was raised to 
serve my master's every need, often without regard for my age 
or my abilities. I had to haul water from a well, shepherd 
cattle, travel with my master to care for his camel and take 
care of my master's children. My reason for being was to care 
for my master's family.
    Mauritanian society considers slavery a natural thing. For 
instance, the word for a black person, a Haratine, is ``abed'' 
which means ``slave'', not ``man''. A black woman is a 
``khadem'', literally, a female slave. There is no distinction. 
The Beydannes believe these names are suitable for slaves 
because they are not complete human beings. If you were to 
visit Mauritania and listen to everyday conversations, you 
would hear that slaves are always mentioned. They are talked 
about as an extension of the master: ``My Haratani slave didn't 
wash my clothes. My slave started cooking late. I will send one 
of my slaves to help your slaves in preparing your home. If you 
insult me again, I will have my slaves beat you up.'' In 
Mauritania, the mentality of the Arab Beydannes to work with 
one's hands is shameful.
    Our masters see us as mere property. Slaves are circulated 
by their masters as gifts. Black families are ripped apart when 
a master gives his relatives slaves as gifts or divides the 
slave's family among his sons as their inheritance. During the 
past twelve years, this has extended beyond the border of 
Mauritania. Black slaves have been traded to Arabian Gulf 
states, like Qatar and the United Arab Emirates.
    For centuries, most Mauritanian slaves have simply accepted 
their position because it is the only reality they know. 
Imagine how difficult it is to conceive freedom when you have 
not experienced it for even one day. Faithful Muslim Haratines 
are raised to believe that serving their master is their 
religious duty because of their impure black skin. They are 
told that their only hope for reward in the after life is being 
obedient to their master.
    In Mauritania, there is a saying: ``For the Haratani, 
Paradise is under your master's feet.'' If you are a slave, you 
do not even have the time to question it. Of course, that does 
not mean that for one minute you do not feel the deep pain of 
slavery.
    For some reason, I could never accept my role as a slave. 
From the earliest time I can remember, I knew that something 
was wrong. Even it age three or four, I instinctively asked 
myself questions that would later drive me to escape. They were 
the questions of a young child. Why are we different? Why do I 
get such bad treatment from the Beydannes? What things in life 
show them that they are better than us? Of course, in an 
environment of bondage, you cannot ask such questions out loud. 
But I began to reject all that was around me.
    So, from a young age, I became a troublemaker. I questioned 
the situation of my family and my people. I would challenge my 
master's commands and speak out against my fate as a slave. I 
was lucky my master was not so strict. Other masters would have 
tortured or even killed slaves who acted as I did.
    This does not mean that I was always safe from punishment 
and pain. When I was nine, my fresh manner got me in trouble 
with a local Arab. The details of this incident are painful, 
but the simple result was that he broke my arm. My left arm is 
broken. As a slave, I had no right to see the doctor. My broken 
arm was never fixed, and it will never be healed. In fact, it 
was broken again several years later as a result of my struggle 
against the ongoing injustice.
    Well, they could break my arm, but they could not break my 
desire to be free. I was driven by a dream of a better life, a 
chance to be someone. A chance to help others as a free man and 
not a slave.
    Please understand, no slaves are allowed to go to school. I 
asked to go to school, and I was denied. But, whenever I could, 
I would find Arab children my age, and I would ask them how to 
write things. When children in the village would do their 
homework, I would practice and memorize whatever I heard. 
That's how I first learned to read and write my name.
    By 1979, the time was ripe. I got a chance to move from my 
village to the capital. I quickly made my plan, and I ran away. 
I left late at night, crossing into the Senegal River.
    So what have I done in the twenty years since I turned my 
back on slavery for a new life? I have been on a long journey, 
wandering across Africa and the Middle East. After escaping, I 
knew I had to get an education. So I studied hard to achieve 
what I had been denied the opportunity to achieve in my own 
country. In the Ivory Coast, at the age of twenty-two, I sat in 
a classroom and was allowed to look at a teacher for the first 
time. I later earned a certificate in electrical engineering in 
Libya. I studied literature and Islamic law in Morocco. And in 
1993 I received a law degree from the University of Garyounis 
in Benghazi.
    But I also knew that I could never rest while my relatives 
remained in bondage. I could not simply leave them behind. And 
so I joined El Hor, which means ``The Free.'' It is a 
Mauritanian anti-slavery organization that is committed to 
fighting the social and political structures that allows 
slavery to continue in Mauritania. We are targeted by the 
government. And so our work is difficult. But we will not rest 
until we can free all of our brothers and sisters.
    I also want to be clear that our efforts against slavery in 
Mauritania do not call for violence or the overthrow of the 
government. We anti-slavery group activists know very well that 
the government is racist and corrupt on a scale beyond that of 
even the former apartheid regime in South Africa. But our 
primary goal is to free our brothers and sisters from physical 
and mental slavery. Too many Haratines simply do not know that 
slavery is not their God-given role. They must be educated. 
They must be liberated.
    Mr. Chairman, esteemed committee members, I have come to 
the United States carrying with me the sadness of the past, but 
also I bring great hope. The United States Congress has a 
worldwide reputation for its defense of human rights. And, 
until a few years ago, the United States government 
consistently condemned the slavery in Mauritania, and regularly 
named the government as a major human rights violator. Economic 
pressure was applied, and the anti-slavery movement felt it had 
American support. But then the Mauritanian regime, which had 
long been close to the Iraqi dictator, Saddam Hussein--even 
backing Iraq in the Gulf War----
    Senator Brownback. Moctar, we want to make sure we are able 
to finish by 12:30 if possible. So if you could kind of wrap it 
up, because I want to make sure to give Jean some time. I do 
not mean to cut you short at all. We need to, if we can, by 
12:30 is what we are going to try to move for.
    Mr. Teyeb. Thank you. It is almost done. Even backing Iraq 
in the Gulf War--decided in 1995 that it wanted American 
foreign aid and began to vote with the United States and 
against Saddam in the United Nations. Suddenly, the American 
State Department became very quiet about the slavery in 
Mauritania. And so my people are now asking why has American 
abandoned us?
    At a time when the United States is expressing an increased 
commitment to freedom, democracy and human rights in Africa, 
the State Department has tragically lost interest in the issue 
of slavery in Mauritania. We appreciate the American desire to 
isolate Saddam Hussein. We also support peace in the Middle 
East. But we cannot believe that this cynical tradeoff of the 
most basic human rights--freedom from slavery--will be 
tolerated by the United States Congress.
    The suffering of the Haratines has lasted for 800 years. 
Tragically, our fellow Muslims have failed to condemn the 
practice of slavery in Mauritania. They have denied and 
neglected what is happening to us, even though we Haratines are 
sincere and proud Muslims.
    There are so many international organizations and 
government agencies that care about humanitarian issues. They 
fight famine, natural disasters, child abuse, domestic abuse, 
political detentions, and more. But very few of these 
organizations and agencies have had nothing to say about 
slavery in Mauritania. We believe that it is time to end that 
silence. We ask you, Mr. Chairman, esteemed committee members, 
to help us to resume American economic and political pressure 
on the Mauritanian regime, to help us set our people free.
    We Haratines also have a new hope as our director of the 
American Anti-Slavery Group. I have spoken to the children and 
adults at schools and at marches. And I see students starting 
anti-slavery campaign. And I see adults demanding action. I see 
that Americans are again abolitionists. America is a proud 
abolitionist nation. But your work is not over. You have a 
responsibility to help end slavery in Mauritania. You cannot be 
silent.
    Mr. Chairman, I want to say clearly we Haratines have a 
task for you. You must place great pressure on the present 
dictatorship in Mauritania to dismantle the institution of 
slavery. You can visit Mauritania and see slavery for yourself. 
You must help us in our struggle for freedom.
    Mr. Chairman, I thank you very much and I say next year in 
Free Mauritania. Thank you and God Bless you.
    [The prepared statement of Mr. Teyeb follows:]

                   Prepared Statement of Moctar Teyeb

    Thank you, Mr. Chairman, I greet you by saying as alaamu alaikum, 
good afternoon. It is an honor to testify before your committee about 
slavery in Mauritania. This is the first time that the slaves of 
Mauritania have been asked by the United States government to tell of 
our suffering and our hope for the future. Today is a great moment for 
us.
    As one who was born in bondage, I speak before you on behalf of 
more than one million slaves in my homeland of Mauritania, and on 
behalf of my organization, El Hor. Mr. Chairman, I have been waiting to 
tell you my people's story for five years.
    My testimony today has three main points. First, I will discuss my 
country's 800-year-old system of slavery, which continues today. 
Second, I will briefly recount my journey to freedom. As you will hear, 
my desire to become educated and to educate others is what pushed me to 
break free. And finally, I will describe the terrible wrong of how my 
people have been left to serve in silence--but also how you can set 
them free.
                      800 YEARS OF CHATTEL SLAVERY
    Eight centuries ago, my ancestors lived peacefully in their 
homeland of Africa. Then came the Arab-Berber raids.
    Suddenly, in the night, under the cover of darkness, Arab-Berber 
raiding parties from the north descended on our villages. These raiders 
stormed through on horses and camels. They killed or chased off the 
men, and took the women and the children away, tied to the backs of 
their animals. Why women and children? Because they would be 
controlled, and raised to believe that their role as blacks was to 
serve their new masters. And they could be made into a slave caste.
    In this way, we became Haratines--black Muslim slaves who 
faithfully served our white Arab masters, the Beydannes. ``Haratine'' 
and ``Beydannes'' are local Mauritanian words for ``slaves'' and 
``masters.'' The system of slavery that began with these raids in the 
12th century continues today.
    You may know that before the Trans-Atlantic slave trade there 
existed for centuries a Saharan slave trade. Timbuktu, for instance, is 
well known as a stop on the Saharan caravan route. The goods on those 
caravans were three things: gold, ivory . . . and black slaves. As a 
result of those caravans, slavery became an accepted institution in the 
region in which I was born.
    Slaves were--and are--the property of masters; they exist to serve 
the master's every need. For the Arabs in Mauritania, it is shameful to 
work with one's hands. So slaves cook, clean, and wash the hands of the 
masters before they eat. Slaves haul water, shepherd cattle, and 
cultivate land.
    Slaves are also given as gifts or as loans. When the daughter of a 
master marries, she must move to the house of her husband's family, 
along with two slaves to serve her and show her noble status.
    Let me make clear that everyone in Mauritania is Muslim: the 
masters and the slaves. The Haratines slaves are faithful Muslims, and 
are raised to believe that serving their master is their religious 
duty. Because of their impure black skin, they are told that their only 
hope for reward in the afterlife is being obedient. In Mauritania, we 
have a simple a saying: ``Paradise under your master's foot.''
    The values and concepts that drive the Mauritanian system of 
slavery are backed by a wrong version of Islam. The Beydannes do not 
allow black Haratine slaves to learn the Holy Koran because black 
slaves are too impure for such a holy book. Only the Beydannes have the 
right to learn the Koran, and the hard result is that the slaves are 
more obedient without knowing the truth of Islam.
    Masters also deny slaves the right to marry. The masters believe 
that if Haratines make their own marriage, they will begin to feel 
independent. Therefore, even the most basic right of marriage is denied 
them.
    This is all in violation of the Holy Koran. Since I escaped from 
bondage, I have spent many years studying Islamic law, and I know that 
God is very clear on the issue. Freeing slaves is a high form of 
charity. As it is written in the Koran: ``The alms are only for the 
poor and the needy, and are used to free captives and debtors for the 
cause of Allah, for this is a duty imposed by Allah.''
    But the Beydannes have reversed this concept. When rich masters 
want to make repentance, they do not ``free a neck,'' as the Koran 
says. Instead, they give one of their slaves as charity to the poor. So 
today, you can walk in the capital city of Nouakchot and see blind 
beggars being led around by their black slaves. Mauritania has many 
social classes and clans, but all the light-skinned Beydannes share the 
right to enslave blacks.
    So there are no more slave raids. Everyone has enough slaves, and 
more are obtained by breeding. In addition, there are no open markets 
for slaves. Trading is done informally, by word of mouth. In the early 
1980s, when some princes in Gulf countries needed slaves, they imported 
them from Mauritania. Owners in Mauritania would sell young children to 
sheiks in the Gulf. Inside Mauritania, some masters hire out their 
slaves to companies in return for salaries, or rent slaves out to other 
masters in big cities.
    For eight centuries, many Mauritanian slaves have accepted their 
position, because it is the only reality they know. Imagine how 
difficult it is to conceive freedom when you have not experienced it 
even one day of your life. If you are a slave, you do not have time to 
think about it, to question it. Of course, that does not mean that for 
one minute, you do not feel the deep pain of slavery.
                       FROM SLAVE TO ABOLITIONIST
    I was born in 1959, just as my country, Mauritania, was gaining its 
independence from France. But my family and I were slaves, and had been 
for generations. Our reality was servitude and bondage. Independence 
and freedom--who knew of such things? On my father's side, my family 
has been slaves for at least three generations. On my mother's side, we 
cannot remember a time when we were ever free. And so I entered the 
world in 1959 as a slave.
    I was born in the southern desert of Mauritania near a small 
village called Eggejert. As a young slave, I was raised to serve my 
master's every need, often without regard for my age or my abilities. I 
had to haul water from a well, shepherd cattle, travel with my master 
to care for his camel, and take care of my master's children. My reason 
for being was to care for my master's family's every need.
    For some reason, I could never accept my role as a slave. From the 
earliest time I can remember, I knew that something was wrong. Even at 
the age three or four, I asked myself questions that would later drive 
me to escape. These questions developed in my mind--but then I began to 
speak them. These were the questions of a young child: ``Why are we 
different? Why do I get bad treatment from the Beydannes?'' I began to 
reject all that was around me.
    So from a young age, I did not accept the fact that I was a slave. 
I was a trouble-maker, who questioned the situation of my family and my 
people. I would challenge my master's commands and speak out against my 
fate as a slave. I was lucky. My master was not so strict. Slaves of 
many other masters would have been tortured and even killed.
    This does not mean that I was always safe from punishment and pain. 
When I was nine, my fresh manner got me in trouble with a local Arab. 
The details of this incident are painful and private, but the simple 
result was that he broke my arm. As a slave, I had no right to see a 
doctor. My broken arm was never fixed.
    Well, they could break my arm, but they could not break my desire 
to be free. I was driven by a dream of a better life, a chance to be 
someone. A chance to help others--as free man and not a slave. Once I 
even spoke of this desire in the open, to my master's family. I told 
them my desire to be an educated man, to be a teacher, and to make 
money to help the poor. These desires were unacceptable from slaves, so 
my master was very upset. From that day, I started to prepare for life 
as a free person.
    Please understand, no slaves are allowed to go to school. I asked 
to go to school, and I was denied. But anytime I would find Arab 
children my age, I asked them how to write things. When children in the 
village would do their homework, I would practice and study with them. 
That's how I first learned to read and write my name.
    By 1979, the time was ripe. I got a chance to move from my village 
to the capital. But I quickly made my plan, and I ran away. I knew I 
had to leave Mauritania. So I left late at night, and crossed the 
border into Senegal.
    In the last twenty years, I have been on a long journey, wandering 
across Africa and the Middle East. After escaping, I knew that I must 
now get an education. I also knew that I could not rest while my 
relatives remained in bondage. And so I joined El Hor, which means 
``The Free.'' It is a Mauritanian anti-slavery organization that is 
committed to fighting the social and political structures that allow 
slavery to continue in Mauritania. We are targeted by the government, 
and so our work is difficult. But we will not rest until we can free 
all of our black brothers and sisters.
    I also want to be clear that our efforts against slavery in 
Mauritania do not call for an overthrow of the government. We anti-
slavery activists do believe that the government is racist and corrupt. 
But our primary goal is to free our black brothers and sisters from 
physical and mental slavery. Too many Haratines simply do not know that 
slavery is not their God-given role. They must be educated and 
liberated--and soon.
                          BREAKING THE SILENCE
    Senators, I have come to the United States carrying with me the 
sadness and atrocities of the past. In my heart there is a deep wound, 
but in my mind there is a question: Why have my people been abandoned? 
We are hundreds of thousands of slaves, victims of a racist practice 
worse than apartheid. Is this not the worst form of domestic abuse, of 
political repression, of political repression?
    Tragically, our brothers in Islam have never condemned the practice 
of slavery in Mauritania. They have denied and neglected what is 
happening to us, even though we Haratines are proud Muslims. Muslim and 
African leaders must know that the slavery in Mauritania is a fact and 
reality, and should put pressure on the dictatorship in Mauritania to 
end slavery.
    We Haratines also are dismayed at the silence from the human rights 
community. Human rights groups have known about slavery in Mauritania 
for years, but have yet to launch a concerted effort to address 
contemporary slavery.
    There are so many organizations and humanitarian groups dedicated 
to fighting child abuse, political detentions, and disasters. But these 
groups have forgotten about one million slaves in Mauritania. How can 
this be?
    Until recently, the State Department extensively documented slavery 
in Mauritania. Then, after Mauritania abandoned its support of Saddam 
Hussein, the State Department rewarded this moderation by citing mere 
``vestiges'' of slavery in its annual human rights reports.
    Despite a 1996 Congressional resolution decrying chattel slavery in 
Mauritania (HR 4036-3), the current administration continues to engage 
Mauritania as a moderate Arab state. The price of this rapprochement is 
my people's freedom. Last year, Mauritania and Israel signed a peace 
treaty, further deepening our plight. Now there is even more at stake 
in covering up Mauritania's ugly secret.
    Senators, for hundreds of thousands of blacks in Mauritania, 
slavery is no ``vestige''--it is a brutal reality. And we slaves have 
rights. Though the world may have forgotten, freedom is our right too. 
We Haratines are committed to fighting for our rights.
    We Haratines also have new hope. As Outreach Director of the 
American Anti-Slavery Group, I have spoken to children and adults, at 
schools and at protest marches. I see students starting anti-slavery 
campaigns, and I see adults demanding action. I see that the old spark 
of abolitionism is once again touching the souls of Americans.
    Freedom from bondage is the most fundamental human right, and 
America is a proud abolitionist nation. But your work is not over. With 
freedom comes responsibility. And you have a responsibility to help end 
slavery in Mauritania.
    Senators, I want to say clearly: we Haratines have a task for you. 
You must place great pressure on the present dictatorship in Mauritania 
to dismantle the institution of slavery. You can visit Mauritania and 
see slavery for yourselves. You must help us in our struggle for 
freedom.
    Senators, I thank you very much, and I say to you: ``Next year in a 
free Mauritania.''
    Salaam aleikum. Shukran. Thank you.

    Senator Brownback. Thank you, Moctar, for your statement. I 
appreciate that greatly. And for your willingness to come 
forward. It is a very difficult situation that you speak about. 
And I appreciate your articulating that.
    Our final witness will be Jean Robert Cadet. I apologize 
for mispronouncing your name horribly the first time around. 
But I do appreciate you being here and look forward to your 
testimony.

                 STATEMENT OF JEAN ROBERT CADET

    Mr. Cadet. Thank you. My name is Jean Robert Cadet, and I 
would like to thank the Senate Foreign Relations Committee for 
the opportunity to speak on behalf of children in domestic 
servitude in Haiti.
    I was born in Haiti to a peasant woman from the 
countryside. She died when I was about four years old and I was 
soon given to a middle-class family in Port-au-Prince who 
raised me as a domestic slave.
    Children in domestic servitude are called restavec, a 
French term that means ``stay with.'' Since emancipation and 
independence in 1804, those of better means have reintroduced 
slavery by using children of the very poor as house servants. 
They promise poor families in the rural areas who have too many 
mouths to feed a better life for their children. Once acquired, 
these children lose all contact with their families and their 
most basic rights to protection, health and education are 
denied. They set tables for meals in which they cannot partake, 
fetch water they cannot use for their own needs and forbidden 
to speak until spoken to.
    Restavecs are treated worse than slaves, because they don't 
cost anything and their supply seems inexhaustible. They do the 
jobs that the hired domestics will not do and are made to sleep 
on cardboard, either under the kitchen table or outside on the 
front porch. For any minor infraction they are severely whipped 
with the cowhide that is still being made exclusively for that 
very purpose.
    Girls are usually worse off because they are sometimes used 
as concubines for the teenage sons of their owners. And once 
pregnant, they are shown the door to fend for themselves.
    When I was a boy in Haiti, I knew a restavec name Jesula, 
no more than 12 years old, who was owned by a family of four--a 
woman, her husband and two young men. After having been raped 
by the two young men, Jesula was severely whipped with an 
electrical cord that broke her skin and shed her blood. Then 
she was held down by the men while the woman rubbed hot pepper 
in her vagina. I saw her in the creek where I went to fetch 
water. She was sitting in the stream, holding herself, 
screaming hysterically.
    I did not fully understand what had happened to her until I 
became an adult. Last spring, while visiting a shelter for 
restavec children in Haiti, a girl named Antonia told me how 
she had been punished when the mistress of the house discovered 
her husband on top of her. I remembered Jesula's scream of pain 
from my past and I saw the same pain in Antonia's eyes, only 
the year was now 2000.
    As a restavec, I started my day at 5:30 in the morning 
after I picked up my bedding from under the kitchen table. I 
swept the yard, washed the family car, set the table for 
breakfast, filled the bathtub, emptied and washed the chamber 
pots. By 11:00 a.m., I received my daily beating for having wet 
my bedding. Sometimes my owner's friends would come and borrow 
me for the rest of the day to clean their homes.
    In the afternoon, I washed the car again, polished 
everyone's shoes, washed the rags the women used to control 
their period. I washed everyone's feet and then fetched water.
    As I restavec, I could not interact with the family members 
on a personal level, and I also did not dare smile or laugh in 
their presence, as this would have been considered 
disrespectful.
    On occasion, restavecs managed to form friendships with 
other restavecs and play together when their masters were out 
for extended hours. I had met Rene, a boy about fourteen years 
old. He seemed a few years older than I was. I must have been 
between ten and twelve years old. Rene had been acquired by the 
Beauchamp family, who lived three houses away and had a taxi 
business.
    Every morning, Rene woke up at the crowing of the first 
rooster to wash the cars before the drivers arrived. At eight 
o'clock in the evening he collected the moneybags from the 
drivers.
    Between eight and nine o'clock at night, I would listen for 
Rene's signals--three long whistles. If I whistled back, we 
would meet behind my owner's house to watch ``I Love Lucy'' 
through the window screen, standing on cement blocks in the 
dark while mosquitoes feasted on our exposed arms and legs. In 
the Beauchamp's family living room, the television was placed 
under the window and restavecs were not allowed to watch it 
indoors.
    One night, the Adventures of Tarzan had just started when 
Rene arrived with a hand basket. He pulled out a bowl of food, 
two colas, and fresh pastries. We sat on the cement block and 
ate in silence. I wanted to know where he got the money to buy 
the food, but I did not want to know the answer.
    By mid morning, news had quickly spread among the maids and 
restavecs that Rene had stolen two dollars from his owner's 
cash box. Rene was severely beaten with a cowhide whip. Every 
strike lifted the skin and formed blisters. Mr. Beauchamp 
wanted to know whether Rene had shared the money with other 
restavecs, but Rene did not implicate me. He was made to kneel 
on a bed of hot rocks in the sun, while holding two large 
stones in each hand high above his head. After Rene blacked 
out, Mr. Beauchamp threw him in the backseat of his car and 
drove him to the police station.
    The police brought Rene back late in the afternoon. His 
nose was bleeding, his eyes were swollen shut, and his lips 
resembled two pieces of raw cow's liver. His puffy face was 
twisted to one side and his ragged shirt was glued to his 
broken body. I never saw Rene again after that day.
    It was by a twist of fate that I came to the United States. 
My owners, who repatriated to New York when I was about 14 
years old, sent for me to resume the same duties that I used to 
perform in Haiti. There were three adults and three children in 
the family.
    One day, a family friend who knew me in Haiti came to visit 
and told the family that it was against the law in the United 
States not to send a minor to school. When the family realized 
that the restavec system was not compatible with American 
society, I was shown the door to fend for myself.
    I was sleeping in all night laundromats, and I did not 
speak English. One of my teachers at Spring Valley High School 
in New York sent me to the welfare office with a letter. I was 
given food stamps and money to pay rent to a roommate.
    After three months on welfare, I began working in a gas 
station after school. After four years I graduated and enlisted 
in the United States Army for three years where I served in the 
75th Ranger Battalion in Fort Lewis, Washington.
    Through the GI Bill I enrolled at the University of South 
Florida and graduated with a bachelor's degree in International 
Studies. I moved to Cincinnati, Ohio where I received a masters 
degree from the University of Cincinnati.
    Nine years ago my son was born and I began to ask myself 
how I would explain my past to him. I look at this innocent 
child who was so dependent on me, and thought of the Haitian 
children who were facing the same hell I had lived. I wrote 
Restavec to raise international consciousness to the plight of 
more than 300,000 Haitian slave children.
    I believe it is the moral obligation of this great nation 
to help Haiti solve the restavec problem. The United States 
government has the resources and the means. And Haiti is only 
600 miles from our shores.
    In 1994, you sent troops to restore democracy and to give 
hope to a people who were accustomed to live under the iron 
fist of dictators. But that democracy will never take hold as 
long as ten percent of Haitian children live in restavec 
slavery. Thank you, very much.
    Senator Brownback. That is powerful testimony. That is 
powerful testimony. And really a testimony to the human spirit. 
I admire both of you greatly for what you have done and where 
you have come to and the strength that that has taken to do 
that. You have spoken out and you have spoken well and you have 
spoken to the world.
    This is an issue I think you heard at the outset of the 
hearing this is one of the first hearings in modern times--it 
may be the first ever in modern times in the United States 
Congress on the issue of slavery.
    Most, as I think Kevin stated, thought this ended in 1865. 
Myself, with the background of my state in the area, we thought 
that war was fought and won sometime in the past.
    I am constantly drawn to the statement that others have 
made to me, and was quoted to President Kennedy, that if one 
person is not free, none of us are truly free. We must push and 
see that this takes place, that these issues are addressed.
    The stunning question that arises, and this is the same 
question that I had when we first held a hearing on the sex 
traffic, the trafficking of young girls for prostitution 
business. Why is there just not a roar around the world that 
this is occurring today? Why is this a first hearing on this 
subject? Why do we not see articles all over the newspaper, on 
the television? Why?
    Mr. Cadet. Because children have no voice. They need 
someone to speak for them. And the people where the children 
live, the adults, the people, are not willing to speak for 
these children. And the children are not capable of speaking 
for themselves. Nobody will listen to them.
    Senator Brownback. Do U.S. diplomats observe the restavec 
system in Haiti and see that this occurs?
    Mr. Cadet. Yes, we are talking about ten percent of the 
Haitian children population. I have seen it. As recently as 
three months ago. I visited Haiti. And then I heard stories of 
children, children a young as 12, 13 years old, who were being 
raped with peppers smeared in their vaginas because their 
owners discovered they were having--they were being raped by 
their own sons. It is a fact of life in Haiti. It has been 
going on since 1804.
    Senator Brownback. Kevin, you have been around the world 
and studied this. Why is this not being covered and people 
called about it everywhere?
    Dr. Bales. There are several reasons. It has to be said 
though that that recognition is growing. If you actually were 
to chart the number of newspaper articles and so forth over the 
last ten years, you would see a significant increase. But an 
increase from nothing to something does not make it a great 
deal.
    There has been a sort of mass historical delusion that 
slavery disappeared a long time ago. And we--unfortunately, in 
the United States, we are very happy to pat ourselves on the 
back for a long time and say we are the country that fought a 
war over this and got rid of slavery. It was easy for us to 
imagine that all slavery was like the slavery of 1865 and that 
that slavery was not around anymore. And that is true. That 
slavery as ownership, with the exception of places like 
Mauritania does not exist in the way that it did.
    But slavery is very dynamic. It is a social relationship. 
It is an economic relationship that changes over time. It has 
been evolving with us. And it is taking new global force. What 
we have at the moment is a situation in which people who are 
aware are primarily aware of scattered incidences. They look in 
the press, in the TV and they see a report here, a report 
there. They might have read Jean Robert's book. They have heard 
about Sudan. It is almost like seeing mountaintops through a 
layer of clouds. A soon as we can strip away that layer of 
clouds, people will understand there is a great geography of 
slavery beneath it.
    It is not just this isolated incident and that isolated 
incident. It is unique and unified around the globe.
    But we are at the beginning of that process. Senator 
Brownback, you have made a very important step in stripping 
away the veil that conceals that. Today is a very important 
moment for that reason. The abolitionist movement around the 
world thanks you for that. But we have got to do it again and 
again and again until that big picture comes into focus and the 
people understand that there is slavery in Sudan, but there is 
also slavery in almost every other country in the world.
    Senator Brownback. Moctar, why have we not heard more of 
this?
    Mr. Teyeb. I could add that there are several reasons. One 
of the reasons is political. The conflict in what we used to 
call the Cold War between the north/south is one of the main 
things. I will give an example in Mauritania, a situation of 
slavery in Africa.
    You see the conflict in the Middle East and the conflict of 
the upper side in South Africa make in the 60 years the African 
with the Muslim Arab changed the support in the United Nations 
and the whole international conferences.
    They do not want to mention anything related to human 
rights abuse in Africa as long as the Arab--the focus--to get 
support from the African nations and from the Muslims. The 
African also liberation want to get support from the Muslim and 
from the Arab nations. Therefore, no one will speak about this 
issue of slavery in West Africa and Mauritania.
    The second reason is our situation. If you could imagine, I 
sneak through the woods that I do not have certificate of birth 
or I do not have even two dollars.
    So in other words, the slave in Mauritania, they do not 
ever go out to the place to see the sun as I felt it in my age 
four or five. So when I could sneak an hour, we had hours to 
flee. So after I started to talk about the issue of slavery. I 
have been on a long tour in the United States in schools and 
churches and mosques and universities during these three years. 
Even as you know, I just now still complete my last course in 
English. But in my opinion, I could make people to understand 
myself.
    In other words, the absence of the slaves themselves and 
the world interest in economical and political, who will bring 
the issue? But today I think the situation changed. There are 
abolitionists from the slaves themselves as you see today. And 
also, the Cold War is over and now is the terms are new, 
politically and globalization and whatever the song that we 
hear unfortunately a couple of years ago. And now started too.
    So this is one of the main situations that make slavery 
have been silent from all over the world unfortunately.
    Senator Brownback. Well, I want to thank you all. This has 
been a very disturbing and a very enlightening hearing that has 
taken place. And I appreciate greatly your work that has gone 
on and your lives and the spirit that cries out from within you 
that has made it to this point and has brought this light to 
bear.
    I want to commit myself, pledge myself, to the abolitionist 
movement that we would step forward with a new day of freedom 
around the world. We have this great freedom in this country. 
And we have this great responsibility that goes with the 
freedom and the position that the United States has been given 
in the world today. And one of those has to be to continue to 
speak out for freedom. It is a founding principle for us. And I 
do not think we were given this vaulted status just to enjoy it 
for our own pleasure. But it is also for us to be able to speak 
and to press that.
    Francis noted his people were waiting for a strong people 
to free them. This is something we need to do.
    Thank you all for joining us today. We will be hearing more 
about this subject. The hearing is adjourned.
    [Whereupon, at 12:34 p.m. the hearing was adjourned.]

                                    

      

</pre></body></html>
